App. 1
United States Court of Appeals
For the First Circuit
-----------------------------------------------------------------------

Nos. 16-1376
19-1002
SUN CAPITAL PARTNERS III, LP; SUN
CAPITAL PARTNERS III QP, LP; SUN
CAPITAL PARTNERS IV, LP,
Plaintiffs, Appellants,
v.
NEW ENGLAND TEAMSTERS & TRUCKING
INDUSTRY PENSION FUND,
Defendant, Third Party Plaintiff, Appellee,
SCOTT BRASS HOLDING CORP.;
SUN SCOTT BRASS, LLC,
Third Party Defendants.
-----------------------------------------------------------------------

APPEALS FROM THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF MASSACHUSETTS,
[Hon. Douglas P. Woodlock, U.S. District Judge].
-----------------------------------------------------------------------

Before
Lynch, Stahl, and Lipez,
Circuit Judges.
-----------------------------------------------------------------------

App. 2
John C. O’Quinn, with whom John F. Hartmann,
Devin A. DeBacker, Kirkland & Ellis LLP, Theodore J.
Folkman, and Pierce Bainbridge Beck Price & Hecht
LLP, were on brief for appellants.
Catherine M. Campbell, with whom Melissa A.
Brennan, Renee J. Bushey, and Feinberg, Campbell &
Zack, PC were on brief for appellee.
Craig T. Fessenden, with whom Judith R. Starr,
Kartar S. Khalsa, Charles L. Finke, and Louisa A.
Soulard were on brief for Pension Benefit Guaranty
Corporation, amicus curiae.
-----------------------------------------------------------------------

November 22, 2019
-----------------------------------------------------------------------

LYNCH, Circuit Judge. The issue on appeal is
whether two private equity funds, Sun Capital Partners III, LP (“Sun Fund III”) and Sun Capital Partners
IV, LP (“Sun Fund IV”), are liable for $4,516,539 in
pension fund withdrawal liability owed by a brass
manufacturing company which was owned by the two
Sun Funds when that company went bankrupt. The liability issue is governed by the Multiemployer Pension
Plan Amendments Act of 1980 (“MPPAA”). Under that
statute, the issue of liability depends on whether the
two Funds had created, despite their express corporate
structure, an implied partnership-in-fact which constituted a control group. That question, in the absence of
any further formal guidance from the Pension Benefit
Guaranty Corporation (“PBGC”), turns on an

App. 3
application of the multifactored partnership test in
Luna v. Commissioner, 42 T.C. 1067 (1964).
If the MPPAA imposes such withdrawal liability,
PBGC states it assumes the New England Teamsters
& Trucking Industry Pension Fund (“Pension Fund”)
intends to look to the private equity funds, including
their general partners and their limited partners, to
pay the liability. The issues raised involve conflicting
policy choices for Congress or PBGC to make. On one
hand, imposing liability would likely disincentivize
much-needed private investment in underperforming
companies with unfunded pension liabilities. This
chilling effect could, in turn, worsen the financial position of multiemployer pension plans. On the other
hand, if the MPPAA does not impose liability and the
Pension Fund becomes insolvent, then PBGC likely
will pay some of the liability, and the pensioned workers (with 30 years of service) will receive a maximum
of $12,870 annually. See 29 U.S.C. § 1322a.
The district court held that there was an implied
partnership-in-fact which constituted a control group.
We reverse because we conclude the Luna test has not
been met and we cannot conclude that Congress intended to impose liability in this scenario.

App. 4
I.
We describe the facts as to the organizational
structures of the Sun Funds1 and related entities. We
also refer to the facts set forth in our previous opinion
in Sun Capital Partners III, LP v. New England Teamsters & Trucking Industry Pension Fund, 724 F.3d 129,
135 n.3 (1st Cir. 2013) (Sun Capital II). The two Sun
Funds are each distinct business entities with primarily different investors and investments. But they are
controlled by the same two men, and they coordinate
to identify, acquire, restructure, and sell portfolio companies. The Funds form and finance subsidiary LLCs,
through which they acquire and control portfolio companies, including Scott Brass, Inc. (“SBI”), the brass
manufacturing company. While the Funds jointly
owned SBI, it filed for bankruptcy and subsequently
withdrew from the Pension Fund, a multiemployer
pension fund, incurring withdrawal liability.2 We
1

Sun Fund III and Sun Fund IV are collectively referred to
as the “Sun Funds” or “Funds.” Sun Fund III technically comprises two funds: Sun Capital Partners III, LP and Sun Capital
Partners III QP, LP. Because these are parallel funds, share a
single general partner, and invest nearly identically, we treat
them as one entity, as we did in Sun Capital Partners III, LP v.
New England Teamsters & Trucking Industry Pension Fund, 724
F.3d 129, 135 n.3 (1st Cir. 2013).
2
The price of copper dropped in 2008, reducing the value of
SBI’s inventory, which caused a breach of SBI’s loan covenants.
This prevented SBI from accessing credit and paying its bills,
causing its bankruptcy and subsequent withdrawal from the Pension Fund. Sun Capital II, 724 F.3d at 136. There is no suggestion
that mismanagement of SBI by the Funds caused, or even contributed to, the bankruptcy. It is clear that declining copper
prices, likely a product of the global recession, caused SBI’s

App. 5
restate here only certain facts, and then briefly give a
procedural history of the litigation leading to the instant appeal.
A. The Organization of the Sun Funds
Sun Capital Advisors, Inc. (“SCAI”) is a private equity firm which pools investors’ capital in limited partnerships, assists these limited partnerships in finding
and acquiring portfolio companies, and then provides
management services to those portfolio companies.
SCAI established at least eight funds. Two of them,
Sun Fund III and Sun Fund IV, appellants here, are
the investors in SBI, and both are organized under
Delaware law as limited partnerships. The Sun Funds
themselves do not have offices or employees, do not
make or sell goods, and report to the IRS only investment income. The Funds expressly disclaimed in their
respective limited partnership agreements any partnership or joint venture with each other. The Funds
also maintained distinct tax returns, financial books,
and bank accounts.
Sun Funds III and IV each have one general partner, Sun Capital Advisors III, LP and Sun Capital Advisors IV, LP, respectively. These general partners each
own respective subsidiary management companies,
bankruptcy. The Funds’ acquisition of SBI may have prolonged
the operation of SBI, and so lengthened the employment of its
employees, but there is no evidence of how the Funds’ investment
in SBI impacted the company. There is also no indication that SBI
employees had any alternative retirement savings vehicles (e.g.,
a 401(k) plan).

App. 6
Sun Capital Partners Management III, LLC (“SCPM
III”) and Sun Capital Partners Management IV, LLC
(“SCPM IV”). The two management companies act as
intermediaries between SCAI and holding companies.
The management companies contract with SCAI for
the management services of SCAI’s employees and
consultants, and then with the holding company to provide these management services.
Sun Funds III and IV, respectively, have 124 and
230 limited partners. Sixty-four of these limited partners overlap between the Funds. The limited partners
include both individual and institutional investors, including pension funds, other private equity funds, family trusts, and universities.3 The Sun Funds’ limited
partnership agreements vest exclusive control of the
Funds in their respective general partners, assign the
general partners percentages of the Funds’ total commitments and investment profits, and require the
Funds to pay their general partners an annual management fee.4 The Sun Funds’ general partners, which

3

The identities of the limited partners remain under seal.
The Sun Funds owe to their general partners an annual
management fee equal to two percent of their total commitments.
A general partner may waive these fees to receive “waived fee
amounts,” which reduce its capital obligations in the event of a
Sun Fund’s future capital call. Additionally, the Sun Funds receive an offset to the fees they owe their general partners commensurate to a portion of the fees the portfolio companies pay the
management companies. When a Fund’s management fee offsets
exceed its management fees owed in a six-month period, it receives a “carryforward” that may offset the fees owed in the subsequent six-month period.
4

App. 7
are themselves organized as limited partnerships,
have limited partnership agreements, which vest exclusive control over the general partners’ “material
partnership decisions” in limited partnership committees. These limited partnership committees are each
made up of two individuals, Marc Leder and Rodger
Krouse. These two men also founded and serve as the
co-CEOs and sole shareholders of SCAI. Leder and
Krouse were the co-CEOs of the management company
SCPM IV.5
B.

The Operation of the Sun Funds and SBI

The Funds used their controlling share of portfolio
companies “to implement restructuring and operational plans, build management teams, become intimately involved in company operations, and otherwise
cause growth in the portfolio companies.” Sun Capital
II, 724 F.3d at 134. The Sun Funds owned and managed their acquisitions through various corporate intermediaries. The Sun Funds together sought out
potential portfolio companies and, through SCAI, developed restructuring and operating plans before
The district court quite properly found Sun Fund III’s fee
waivers and Sun Fund IV’s carryforwards to be direct economic
benefits because they each provided either current, or potential
future, financial benefits that a passive investor would not accrue.
Sun Capital Partners III, LP v. New England Teamsters & Trucking Indus. Pension Fund, 172 F. Supp. 3d 447, 453-54 (D. Mass.
2016) (Sun Capital III).
5
The record does not include SCPM III’s Limited Liability
Company Agreement, and so does not set forth the identity of
SCPM III’s executives.

App. 8
acquisition. The Sun Funds then would attempt to sell
a portfolio company for a profit, typically within two to
five years of acquisition. The Sun Funds would acquire,
restructure, and sell companies both independently
and together.6
As part of their acquisition of SBI, the Sun Funds
formed and financed Sun Scott Brass, LLC (“SSBLLC”). Sun Fund III owned 30% of SSB-LLC and Sun
Fund IV owned 70% of SSB-LLC. These shares reflect
Sun Fund III investing $900,000 and Sun Fund IV investing $2.1 million in SSB-LLC. SSB-LLC in turn
formed and financed Scott Brass Holding Corporation
(“SBHC”), a wholly owned, subsidiary holding company. SBHC used the Sun Funds’ $3 million investment in SSB-LLC and $4.8 million in debt to purchase
all of SBI’s stock. The purchase price reflected a 25%
discount from the fair market value of the SBI stock at
acquisition to account for SBI’s known, unfunded pension liability. The Funds, through SCAI employees
placed in SBI, jointly operated SBI.
C. Procedural History
In Sun Capital II, we remanded to the district
court to determine whether the Funds were under
common control with SBI and whether Sun Fund III

6

The record shows that Sun Funds III and IV held interests
in eighty-eight entities at the relevant times, of which only seven
overlapped. Only the ownership of SBI is at issue here.

App. 9
engaged in trade or business.7 724 F.3d at 150. It determined that the Sun Funds had formed a partnership-in-fact sitting on top of SSB-LLC and that this
partnership-in-fact owned 100% of SBI through SSBLLC, and so concluded the Funds met the “common
control” test utilized in MPPAA law. Sun Capital Partners III, LP v. New England Teamsters & Trucking Indus. Pension Fund, 172 F. Supp. 3d 447, 463-66 (D.
Mass. 2016). That test is derived from tax law. See 26
C.F.R. § 1.414(c)-2(b); 29 C.F.R. §§ 4001.2, 4001.3(a)
(incorporating regulations promulgated under 26
U.S.C. § 414(c)). The district court held that this partnership-in-fact engaged in “trade or business” in its operation of SBI. Sun Capital III, 172 F. Supp. 3d at 46667. Accordingly, the district court held the Sun Funds
jointly and severally responsible for SBI’s withdrawal
liability. Id. at 467.
The Sun Funds appealed the rulings that they
were under common control with SBI, that they formed
a partnership-in-fact, and, if a partnership-in-fact did
exist, that it engaged in trade or business. PBGC filed
an amicus brief in support of the district court ruling.

7

On remand, the district court held that Sun Fund III engaged in trade or business. Sun Capital III, 172 F. Supp. 3d at
454-55. The Funds acknowledge that our decision in Sun Capital
II controlled this holding and do not challenge it on appeal. But
the Funds “reserve the right to seek further review of this . . . decision.”

App. 10
II.
A.

Standard of Review

This case reaches the court on appeal from a grant
of summary judgment. “We review a grant or denial of
summary judgment, as well as pure issues of law, de
novo.” Sun Capital II, 724 F.3d at 138 (citing Rodriguez
v. Am. Int’l Ins. Co. of P.R., 402 F.3d 45, 46-47 (1st Cir.
2005)). This includes both the determination of withdrawal liability and the recognition of a partnershipin-fact. See Pension Ben. Guar. Corp. v. Beverley, 404
F.3d 243, 246, 250-53 (4th Cir. 2005). Because the parties filed cross-motions for summary judgment, we
“view each motion, separately, in the light most favorable to the non-moving party, and draw all reasonable
inferences in that party’s favor.” OneBeacon Am. Ins.
Co. v. Commercial Union Assurance Co. of Can., 684
F.3d 237, 241 (1st Cir. 2012) (internal quotation marks
omitted).
B.

Withdrawal Liability under the MPPAA

Congress enacted the MPPAA to ensure defined
pension benefit plans remain viable, dissuade employers from withdrawing from multiemployer plans, and
enable a pension fund to recoup any unfunded liabilities. See PBGC v. R.A. Gray & Co., 467 U.S. 717, 72022 (1984). An employer completely withdraws from a
multiemployer plan when it “(1) permanently ceases to
have an obligation to contribute under the plan, or (2)
permanently ceases all covered operations under the
plan.” 29 U.S.C. § 1383(a). On withdrawal, an employer

App. 11
must pay its proportionate share of the plan’s “unfunded vested benefits.” Id. § 1391; see also id. § 1381;
Concrete Pipe & Prods. of Cal., Inc. v. Constr. Laborers
Pension Tr. for S. Cal., 508 U.S. 602, 608-11 (1993); Sun
Capital II, 724 F.3d at 138.
To prevent evasion of the payment of withdrawal
liability, the MPPAA imposes joint and several withdrawal liability not only on the withdrawing employers
but also on all entities (1) under “common control” with
the obligated organization (2) that qualify as engaging
in “trade or business.” 29 U.S.C. § 1301(b)(1); see also
Sun Capital II, 724 F.3d at 138. The imposition by Congress of withdrawal liability on commonly controlled
group members can have the beneficial effect of delaying or preventing pension plans from becoming insolvent, preventing reductions in pension benefits, and
limiting claims on public monies, i.e., PBGC’s multiemployer insurance fund. See PBGC v. Dickens (In re
Challenge Stamping & Porcelain Co.), 719 F.2d 146,
150 (6th Cir. 1983).
C.

Common Control

The MPPAA’s “common control” provision exists to
prevent the “shirking [of ] ERISA obligations by fractionalizing operations into many separate entities.”
Cent. States Se. & Sw. Areas Pension Fund v. Messina
Prods., LLC, 706 F.3d 874, 878 (7th Cir. 2013) (quoting
Cent. States, Se. & Sw. Areas Pension Fund v. White,
258 F.3d 636, 644 (7th Cir. 2001)). ERISA, of which the
MPPAA is a part, as a remedial statute, is to be

App. 12
construed liberally. Teamsters Pension Tr. Fund-Bd. of
Trs. of W. Conference v. Allyn Transp. Co., 832 F.2d 502,
507 (9th Cir. 1987). We have held, in consequence, that
the common control provision “in effect, pierces the corporate veil and disregards formal business structures.”
Sun Capital II, 724 F.3d at 138. And other circuits
which have addressed the question agree. See Messina,
706 F.3d at 877 (holding that the MPPAA can “pierce
corporate veils and impose [withdrawal] liability on
owners and related businesses”); Ceco Concrete Constr., LLC, v. Centennial State Carpenters Pension Tr.,
821 F.3d 1250, 1260 (10th Cir. 2016) (holding the
same). The legislative history is also consistent with
this view. See S. Rep. No. 383, at 43 (1974) (“[T]he committee, by [§ 1301(b)], intends to make it clear that the
. . . provisions cannot be avoided by operating through
separate corporations instead of separate branches of
one corporation.”); H.R. Rep. No. 807, at 50 (1974)
(same).
In 1986, Congress authorized PBGC to promulgate regulations for implementing the common control
provision “consistent and coextensive with regulations
prescribed for similar purposes by the Secretary of the
Treasury under section 414(c) of Title 26” of the Internal Revenue Code. 29 U.S.C. § 1301(b)(1).
The MPPAA regulations adopted in 1996 by
PBGC, in turn, adopt the Treasury Department’s regulations governing “common control.” The regulations
state that entities are under common control if they
are members of a “parent-subsidiary group of trades or

App. 13
business under common control.”8 26 C.F.R. § 1.414(c)2(b); 29 C.F.R. §§ 4001.2, 4001.3(a) (incorporating
Treasury regulations under 26 U.S.C. § 414(c)). Notably, PBGC has not provided the courts or parties with
any further formal guidance on how to determine common control specifically in the MPPAA context. Nor
has PBGC updated its regulation on common control,
29 C.F.R. § 4001.3, since that regulation’s adoption.
The Treasury regulations9 define a “parentsubsidiary group” under the term “parent-subsidiary
groups of trades or businesses under common control”
as:
one or more chains of organizations conducting trades or businesses connected through
ownership of a controlling interest with a
common parent organization if . . . (i) [a] controlling interest in each of the organizations,
except the common parent organization, is
owned . . . by one or more of the other organizations; and (ii) [t]he common parent organization owns . . . a controlling interest in at
least one of the other organizations.
26 C.F.R. § 1.414(c)-2(b)(1).

8

There are also regulations defining “brother-sister groups
of trades or businesses under common control,” but these are not
relevant to this appeal. See 26 C.F.R. § 1.414(c)-2(c).
9
We also do not engage the Funds’ argument that we should
consider interpreting present Treasury regulations in light of the
fate of earlier IRS regulations concerning partnerships and corporations which were rejected by some circuits.

App. 14
Treasury regulations also establish that there is a
“controlling interest” if there is “ownership of stock
possessing at least 80 percent of total combined voting
power . . . or at least 80 percent of the total value of
shares.” Id. § 1.414(c)-2(b)(2)(A). The plain language of
these provisions requires us to find, and ascribe liability to, the entity that controls (by at least 80%) the
withdrawn employer. See Dickens, 719 F.2d at 151
(“The purpose of the 80% regulation is obviously to find
the party in control.”).
D.

Federal Partnership Law

Like the district court, we inquire into the legal
question of whether the record demonstrates the
Funds formed a partnership-in-fact, as a matter of federal common law, to acquire and operate SBI through
SSB-LLC.
We must look to federal tax law on the partnership-in-fact issue. We do so because Congress “intended that a body of Federal substantive law [would]
be developed by the courts to deal with issues involving
rights and obligations under private welfare and pension plans.” Mass. Mut. Life Ins. Co. v. Russell, 473 U.S.
134, 156 (1985) (quoting Remarks of Senator Javits,
120 Cong. Rec. 29,942 (1974)); Bd. of Trs. of W. Conference of Teamsters Pension Tr. Fund v. H.F. Johnson,
Inc., 830 F.2d 1009, 1014 (9th Cir. 1987) (quoting the
same with respect to MPPAA withdrawal liability).
Moreover, by statute, PBGC’s “common control” regulations must be “consistent and coextensive” with

App. 15
treasury regulations under § 414(c). 29 U.S.C.
§ 1301(b)(1). These treasury regulations incorporate
federal tax law’s definition of partnership. 26 C.F.R.
§ 1.414(c)-2(a) (referencing 26 U.S.C. § 7701(a)(2)). And
courts facing similar issues have relied on federal tax
law. See, e.g., Connors v. Ryan’s Coal Co., Inc., 923 F.2d
1461, 1466-67, 1467 n.37 (11th Cir. 1991) (relying on
federal tax precedent to affirm recognition of a partnership and holding one of the partners responsible for
the other partner’s withdrawal liability).
Federal tax law provides that the choice(s) of organizational form under state law does not control this
question of whether a partnership-in-fact was established. See Comm’r v. Tower, 327 U.S. 280, 287-88
(1946) (holding that federal law governs whether parties formed partnership for tax purposes); H.F. Johnson, Inc., 830 F.2d at 1014 (concluding that federal law
governed whether parties formed a partnership and so
were liable for pension withdrawal under ERISA). But
state law, and express disclaimers of partnership formation that are determinative under state law, do provide some guidance. H.F. Johnson, Inc., 830 F.2d at
1014 (holding that, “while [a court] may look to state
law for guidance,” federal law governs whether joint
venturers share withdrawal liability).
The Internal Revenue Code defines a “partnership” to include “a syndicate, group, pool, joint venture,
or other unincorporated organization, through or by
means of which any business, financial operation, or
venture is carried on, and which is not, within the
meaning of this title, a trust or estate or a corporation.”

App. 16
26 U.S.C. § 7701(a)(2) (emphasis added). It similarly
defines “partner” to include “a member in such a syndicate, group, pool, joint venture, or organization.” Id.
We look to the partnership10 factors the Tax Court
adopted in Luna. 42 T.C. at 1077-78. The factors are:
1.

“The agreement of the parties and their conduct in executing its terms”;

2.

“the contributions, if any, which each party
has made to the venture”;

3.

“the parties’ control over income and capital
and the right of each to make withdrawals”;

4.

“whether each party was a principal and
coproprietor, sharing a mutual proprietary interest in the net profits and having an obligation to share losses, or whether one party was
the agent or employee of the other, receiving
for his services contingent compensation in
the form of a percentage of income”;

5.

“whether business was conducted in the joint
names of the parties”;

6.

“whether the parties filed Federal partnership
returns or otherwise represented to respondent or to persons with whom they dealt that
they were joint venturers”;

10

A joint venture differs from a partnership primarily in
scope, see Podell v. Comm’r, 55 T.C. 429, 432 (1970), and the differences do not affect our analysis. Consequently, and like the district court and parties to this case, we employ the terms “partner”
and “partnership” in our analysis.

App. 17
7.

“whether separate books of account were
maintained for the venture”; and

8.

“whether the parties exercised mutual control
over and assumed mutual responsibilities for
the enterprise.”

Id.
To the extent the Funds argue we cannot apply the
Luna factors because they have organized an LLC
through which to operate SBI, we reject the argument.
Merely using the corporate form of a limited liability
corporation cannot alone preclude courts recognizing
the existence of a partnership-in-fact. There is precedent for recognizing a partnership-in-fact where the
parties have formed a different entity through an express agreement. Wabash Railway Co. v. American Refrigerator Transit Co., 7 F.2d 335, 342-44 (8th Cir.
1925), cert. denied, 270 U.S. 643 (1926), and Shorb v.
Beaudry, 56 Cal. 446, 450 (1880), do just that. See also
In re Hart, Nos. 09-71053, 11-42424, 2014 WL 1018087,
at *20 n.11 (Bankr. N.D. Cal. Mar. 14, 2014) (“Shorb [v.
Beaudry], though dated, is still authority in California.”). Given our understanding, we also reject the separate argument made by the Funds that the question
of liability is resolved by the district court’s conclusion
that “[t]he conventional theories of a general partnership – those that on the face reflect operational and institutional overlap between the Funds – are not
evident here.” Sun Capital III, 172 F. Supp. 3d at 463.
If the Funds have, under this multifactored Luna
test, formed a partnership-in-fact, then under the

App. 18
common control regulations they are jointly and severally liable for the debts of the partnership, including
MPPAA withdrawal liability, if the separate trade or
business test is also met. E.g., Cent. States, Se. & Sw.
Areas Pension Fund v. Johnson, 991 F.2d 387, 391-92
(7th Cir. 1993).
Importantly, federal common law11 allows a pre-incorporation venture or partnership to survive the fact
of the partners incorporating. See Wabash Ry., 7 F.2d
at 342-44; cf. Chi., Milwaukee & St. Paul Ry. Co. v.
Minn. Civic & Commerce Ass’n, 247 U.S. 490, 498
(1918) (holding, for the purposes of a regulatory regime, that a “technically . . . separate,” subsidiary corporation was “a mere agency or instrumentality” of the
two railway corporations that wholly controlled it).
That is, under federal law, if entities have in fact
formed a partnership, merely creating a corporation
through which they pursue the goals of the partnership does not necessarily end that partnership. Although not as onerous as the common law veil piercing
standard, the test is rigorous: when parties, including
when operating as a partnership, “control[ ] a subsidiary company so that it may be used as a mere agency
or instrumentality,” a court may “deal with the substance of the transaction involved as if the corporate
agency did not exist and as the justice of the case may
require.” Wabash Ry., 7 F.2d at 344.
11

See also Jolin v. Oster, 44 Wis.2d 623, 172 N.W.2d 12, 16
n.1 (Wis. 1969) (collecting cases stating whether jurisdictions recognize joint ventures may survive incorporation, and noting the
Eighth Circuit does).

App. 19
III.
The MPPAA, ERISA, and tax law require courts to
look beyond how the parties label, or structure, themselves. Courts must rather look to the substance of the
relationships. See, e.g., Connors, 923 F.2d at 1467-68
(finding MPPAA withdrawal liability where individuals formed a partnership despite never explicitly
agreeing to form one); Johnson, 991 F.2d at 391-94
(adopting the test in Connors).12 PBGC regulations direct us to Treasury regulations governing common control, which in turn require us to determine, under
federal partnership law and the Luna test, whether
the Funds formed a partnership-in-fact. There are
some facts here under the Luna factors that tend to
support a conclusion that the Sun Funds formed a
partnership-in-fact to assert common control over SBI,
but consideration of all of the factors leads to the opposite conclusion.
We first consider the Luna factors that favor a
finding of de facto partnership. Even before incorporating SSB-LLC, the Sun Funds together “[sought] out potential portfolio companies . . . in need of extensive
intervention with respect to their management and operations, to provide such intervention, and then to sell
the companies.” Sun Capital II, 724 F.3d at 142 (emphasis added). The Funds, through SCAI, developed restructuring and operating plans for target companies
12

Indeed in Tower, the Supreme Court disregarded the parties’ own identification as a partnership when the substance of
their relationship did not evidence a partnership. 327 U.S. at 282,
291-92.

App. 20
before actually acquiring them through LLCs.13 Id.
This behavior is some evidence of the Sun Funds “exercis[ing] mutual control over and assum[ing] mutual
responsibilities for the enterprise” of identifying, acquiring, and selling portfolio companies together.
Luna, 42 T.C. at 1078. Moreover, if the Sun Funds had
in fact formed a partnership through these pre-incorporation activities, the mere creation of SSB-LLC
would not, as a matter of law, in and of itself end this
already-existing partnership-in-fact. See Wabash Ry.,
7 F.2d at 342-44.
The organization of the control of the Sun Funds
and of control over SBI also is some evidence of a partnership-in-fact. The two men in control of the Funds’
general partners, Leder and Krouse, essentially ran
things for both the Funds and SBI.14 Together, and at
Leder and Krouse’s direction, the Sun Funds placed
SCAI employees in two of SBI’s three director positions, allowing SCAI to control SBI. Sun Capital III,
172 F. Supp. 3d at 467. Moreover, this pooling of
13

This was a usual mode of operation; the Funds similarly
coinvested and comanaged other companies between 2005 and
2008. They adopted the same organizational structure for these
companies as they did with SBI.
14
Sun Capital III, 172 F. Supp. 3d at 461-62. As the only
members of the Sun Funds’ general partners’ limited partner
committees, Leder and Krouse wholly controlled the general partners and, by extension, the Sun Funds. Sun Capital II, 724 F.3d
at 134. Although the Sun Funds have different limited partners,
these partners may not participate in management decisions, and
so Leder and Krouse had sole management authority. See B.
Cheffins & J. Armour, The Eclipse of Private Equity, 33 Del. J.
Corp. L. 1, 9 (2008) (discussing the role of limited partners).

App. 21
resources and expertise in SCAI, which the Funds used
not only to identify, acquire, and manage portfolio companies, and structure those deals, but to provide management consulting and employees to portfolio
companies, including SBI, is evidence tending to show
a partnership. See Cahill v. Comm’r, 106 T.C.M. (CCH)
324, 2013 WL 5272677, at *4 (2013) (concluding a
party’s desire “to pool his resources and to develop
business jointly” evidenced a partnership); Luna, 42
T.C. at 1078 (holding that “mutual control over and . . .
mutual responsibilities for [an] enterprise” indicate a
partnership-in-fact). Indeed, the record does not show
a single disagreement between the Sun Funds over
how to operate SSB-LLC. The Funds’ conduct in managing SSB-LLC is further evidence of a partnershipin-fact sitting above. Cf. Luna, 42 T.C. at 1077 (paralleling Luna factor one: “[t]he agreement of the parties
and their conduct in executing its terms” (emphasis
added)).
We next discuss the Luna factors that counsel
against recognizing a partnership-in-fact. The record
evidence is clear that the Funds did not “intend[ ] to
join together in the present conduct of the enterprise”
(at least beyond their coordination within SSB-LLC).
Comm’r v. Culbertson, 337 U.S. 733, 742 (1949); see
also Luna, 42 T.C. at 1077 (counting against factor
one). The fact that the Funds expressly disclaimed any
sort of partnership between the Funds counts against
a partnership finding as to several of the Luna factors.
See Luna, 42 T.C. at 1077-78 (counting against factor
one, the “agreement of the parties”; factor five,

App. 22
“whether business was conducted in the joint names of
the parties”; and factor six, “whether the parties . . .
represented to . . . persons with whom they dealt that
they were joint venturers”). Most of the 230 entities or
persons who were limited partners in Sun Fund IV
were not limited partners in Sun Fund III. The Funds
also filed separate tax returns, kept separate books,
and maintained separate bank accounts – facts which
tend to rebut partnership formation.15 Id. at 1078
(counting against factors six and seven). The Sun
Funds did not operate in parallel, that is, invest in the
same companies at a fixed or even variable ratio, which
also shows some independence in activity and structure.
The creation of an LLC by the Sun Funds through
which to acquire SBI also shows an intent not to form
a partnership (although not as categorically as the
Funds contend). The formation of an LLC both prevented the Funds from conducting their business in
their “joint names” (Luna factor five) and limited the
manner in which they could “exercise[ ] mutual control
over and assume[ ] mutual responsibilities for” managing SBI (Luna factor eight). Id.
The fact that the entities formally organized
themselves as limited liability business organizations
under state law at virtually all levels distinguishes
this case from Connors and other cases in which courts
15

There was some disagreement at oral argument about
whether the record shows the Sun Funds co-investing with entities that Leder and Krouse do not control. The answer to this
question would not change our decision.

App. 23
have found parties to have formed partnerships-infact, been under common control, and held both parties
responsible for withdrawal liability. E.g., Connors, 923
F.2d at 1467-68. These cases often involved individuals
(typically married couples), rather than limited liability business entities like limited partnerships, further
distinguishing them from the instant case. E.g., id. at
1464. And many of the cases in which courts have recognized these types of partnerships involved fractionalizing already-existing businesses, rather than
pursuing investments in different ones. E.g., id. at
1467-68; Johnson, 991 F.2d at 392-94. Using the Luna
factors, we conclude that most of them, on these facts,
point away from common control.
We credit the district court for its careful and reasoned analysis of the complex facts and law at hand.
Nonetheless, the district court (and the Pension Fund
and PBGC) too greatly discounted the Luna factors
rebutting partnership-in-fact formation. Importantly,
although the district court correctly concluded that incorporating SSB-LLC did not in and of itself prevent
recognizing a partnership-in-fact between the Funds,
SSB-LLC’s incorporation implicates many Luna factors counting against that recognition (an analysis
absent from the district court’s opinion).
Moreover, we are reluctant to impose withdrawal
liability on these private investors because we lack a
firm indication of congressional intent to do so and any
further formal guidance from PBGC. Two of ERISA
and the MPPAA’s principal aims – to ensure the viability of existing pension funds and to encourage the

App. 24
private sector to invest in, or assume control of, struggling companies with pension plans – are in considerable tension here.
We do not reach other legal issues in the case, including the trade or business issue. We decide the issue
of common control only as it has been framed before us
and do not reach other arguments that might have
been available to the parties.
IV.
We reverse entry of summary judgment for the
Pension Fund and remand with directions to enter
summary judgment for the Sun Funds. No costs are
awarded.

App. 25
United States Court of Appeals
For the First Circuit
-----------------------------------------------------------------------

Nos. 16-1376
19-1002
SUN CAPITAL PARTNERS III, LP; SUN
CAPITAL PARTNERS III QP, LP; SUN
CAPITAL PARTNERS IV, LP,
Plaintiffs, Appellants,
v.
NEW ENGLAND TEAMSTERS & TRUCKING
INDUSTRY PENSION FUND,
Defendant, Third Party Plaintiff, Appellee,
SCOTT BRASS HOLDING CORP.;
SUN SCOTT BRASS, LLC,
Third Party Defendants.
-----------------------------------------------------------------------

JUDGMENT
Entered: November 22, 2019
-----------------------------------------------------------------------

This cause came on to be heard on appeal from the
United States District Court for the District of Massachusetts and was argued by counsel.
Upon consideration whereof, it is now here ordered, adjudged and decreed as follows: The district
court’s entry of summary judgment for the New England Teamsters & Trucking Industry Pension Fund is

App. 26
reversed, and the matter is remanded with directions
to enter summary judgment for Sun Capital Partners
III, LP, Sun Capital Partners III QP, LP, and Sun Capital Partners IV, LP. No costs are awarded.
By the Court:
Maria R. Hamilton, Clerk
cc:
Hon. Douglas P. Woodlock
Robert Farrell, Clerk, United States District Court
for the District of Massachusetts
Theodore Joel Folkman
Jeffrey S. Quinn
John F. Hartmann
John C. O’Quinn
Catherine M. Campbell
Renee J. Bushey
Melissa Ann Brennan
Craig T. Fessenden

App. 27
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
)
)
)
)
)
Plaintiffs/
) CIVIL ACTION NO.
Counter-Defendants,
) 10-10921-DPW
v.
)
)
NEW ENGLAND TEAM)
STERS AND TRUCKING
INDUSTRY PENSION FUND, )
)
Defendant/
)
Counter-Plaintiff,
)
)
v.
)
SCOTT BRASS HOLDING
)
CORP., and SUN SCOTT
)
BRASS, LLC,
)
Third-Party Defendants. )
SUN CAPITAL PARTNERS
III, LP, SUN CAPITAL PARTNERS III QP, LP, and SUN
CAPITAL PARTNERS IV, LP,

AMENDED FINAL JUDGMENT
November 30, 2018
In accordance with (a) the Memorandum and Order issued March 16, 2016, Sun Capital Partners, III,
LP, v. New England Teamsters and Trucking Industry
Pension Fund, 172 F. Supp. 3d 447 (D. Mass. 2016), under direction of (b) the remand from the United States
Court of Appeals for the First Circuit, Sun Capital
Partners III, L.P., et al v. New England Teamsters &

App. 28
Trucking Industry Pension Fund, 724 F.3d 129 (1st Cir.
2013), see also id. at 132 n.1 (noting that while default judgment had entered against the third-party
defendants, defendant/counterclaim plaintiff had
abandoned its claims against those parties) and (c) the
Memorandum and Order issued November 26, 2018,
Sun Capital Partners, III, L.P., v. New England Teamsters Trucking and Trucking Industry Pension Fund,
2018 WL 6169366 (D. Mass. Nov. 26, 2018), it is
HEREBY ORDERED:
That the defendant and counterclaim plaintiff,
New England Teamsters and Trucking Industry Pension Fund recover from the plaintiffs and counterclaim
defendants, Sun Capital Partners III, LP, Sun Capital
Partners III QP, LP, Sun Capital Partners IV, LP,
jointly and severally, the amount of Nine Million Three
Hundred Eighty Thousand One Hundred and 13/100
Dollars ($9,380,100.13), which consists of the following
amounts:
Withdrawal liability .............. $4,516,539.00
Prejudgment interest at
6% per annum .................... $3,619,275.75
Liquidated damages ................. $903,307.80
Attorney’s fees and costs .......... $340,977.58
plus post-judgment interest at the rate of 2.67% per
annum.
/s/ Douglas P. Woodlock
DOUGLAS P. WOODLOCK
UNITED STATES DISTRICT JUDGE

App. 29
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
SUN CAPITAL PARTNERS
III, LP, SUN CAPITAL PARTNERS III QP, LP, and SUN
CAPITAL PARTNERS IV, LP,

)
)
)
)
)
Plaintiffs/
) CIVIL ACTION NO.
Counter-Defendants,
) 10-10921-DPW
v.
)
)
NEW ENGLAND TEAM)
STERS AND TRUCKING
INDUSTRY PENSION FUND, )
)
Defendant/
)
Counter-Plaintiff,
)
MEMORANDUM & ORDER
November 26, 2018
Having prevailed in this action after remand from
the Court of Appeals, the defendant, New England
Teamsters and Trucking Industry Pension Fund (“the
Pension Fund”), brought the motion pending before me
under Fed. R. Civ. P. Rule 59(e) to amend the resulting
judgment. Specifically, the Pension Fund contends that
the remand judgment was entered in error because it
failed to include interest, liquidated damages, and attorney fees and costs, as required by 29 U.S.C.
§ 1132(g)(2). A Rule 59(e) motion should be granted
“when the original judgment evidence[s] a manifest error of law . . . ” Biltcliffe v. CitiMortgage, Inc., 772 F.3d

App. 30
925, 930 (1st Cir. 2014) (citation and internal quotation
marks omitted). There was plainly such error here.
The plaintiff limited partnerships, collectively referred to as “Sun Funds”, initially opposed the motion
to amend not on the merits, but on procedural grounds.
After a further explanatory submission by counsel for
the Pension Fund, Sun Funds withdrew certain of its
grounds for opposition. Because the Sun Funds’ opposition implicates important procedures independently
enforceable by the court itself and because the underlying merits of my disposition on remand seemed to me
to require some further reflection, I have used consideration of the motion to amend the judgment to engage
sua sponte in full reconsideration of the remand decision. This Memorandum explains my determination to
amend the judgment only to the extent requested by
the Pension Fund and to leave unmodified the Pension
Fund’s status as prevailing party.
I.

MANIFEST ERROR

At issue in the case is the obligation of Sun Funds
to make contributions to the Pension Fund under the
Multiemployer Pension Plan Amendments Act
(“MPPAA”) which amended the Employee Retirement
Income Security Act (“ERISA”). When judgment is
awarded in favor of a pension plan in such a suit,
ERISA requires a court to award:
(A) the unpaid contributions,
(B) interest on the unpaid contributions,

App. 31
(C) an amount equal to the greater of –
(i)

interest on the unpaid contributions, or

(ii) liquidated damages provided for under
the plan in an amount not in excess of 20 percent (or such higher percentage as may be permitted under Federal or State law) of the
amount determined by the court under subparagraph (A),
(D) reasonable attorney’s fees and costs of the action, to be paid by the defendant, and
(E) such other legal or equitable relief as the
court deems appropriate.
29 U.S.C. § 1132 (g) (2).
The initial judgment I entered on remand
awarded only the amount of the unpaid contributions
under § 1132(g)(2)(A) and failed to include the additional, mandatory remedies under § 1132(g)(2)(B)–(D).
Through its motion, the Pension Fund seeks in excess
of $2,253,787.76 in interest, $903,307.80 in liquidated
damages, and $340,977.58 in attorneys’ fees and costs.1
It is uncontested that the judgment I entered on remand was manifestly in error as a result of the failure
to include these mandatory items. Barring some
1

Given the passage of time between the filing of the motion
to amend and my allowance on the basis of this motion, the additional mandatory interest remedy must be recalculated to reflect
the time value of the judgment to which the Pension Fund is entitled. I will direct the parties to submit promptly an agreed upon
amended judgment to embody the determination I have made in
this Memorandum and Order.

App. 32
disqualifying misstep by the Pension Fund, if the underlying declaratory judgment for the Pension Fund
stands, it must be modified to incorporate award of the
additional items sought by the Pension Fund. I will
take up the missteps identified by the Sun Funds in
Parts II and III before reporting the results of my further consideration of the underlying judgment in Part
IV.
II.

LOCAL RULE 7.1

The Sun Funds initially asserted that the Pension
Fund’s Rule 59 motion should be denied in its entirety
for failure to comply with Local Rule 7.1. Local Rule
7.1(a)(2) provides that “[n]o motion shall be filed unless
counsel certify that they have conferred and have attempted in good faith to resolve or narrow the issue.”
Here, the Pension Fund’s motion included no certification of compliance with Rule 7.1. The Sun Funds assert
– and the Pension Fund does not contest – that the
Pension Fund’s counsel in fact never conferred with
them on this issue before filing its motion.
Local Rule 7.1 plays an important role in the practices and procedures of this District. “[I]t fosters discussion between parties about matters before they
come before the court, and it preserves scarce judicial
resources.” Martinez v. Hubbard, 172 F. Supp. 3d 378,
385 (D. Mass. 2016). It is “not an empty exercise.” Id.
Sanctions for non-compliance are both available and
appropriate. Moreover, because the Rule protects judicial resources as much as it protects opposing parties,

App. 33
there is no need to show prejudice to a party for sanctions to attach. Converse Inc. v. Reebok Int’l Ltd., 328
F. Supp. 2d 166, 170 (D. Mass. 2004).
However, while dismissal of a non-compliant motion is available as a sanction, id. at 174 n.7, such a
sanction is not appropriate for every violation of the
Rule. See Gerakaris v. Champagne, 913 F. Supp. 646,
651 (D. Mass. 1996) (“[W]hile a litigant’s failure to observe the Local Rules invites sanctions, omitting to
confer prior to filing a motion certain to be opposed
does not warrant so severe a sanction as summary denial.”); Edwards v. New England Tel. & Tel. Co., 86 F.3d
1146 (1st Cir. 1996) (per curiam) (approving of the district court’s analysis in Gerakaris).2
Here, it does not appear that a pre-motion conference between the parties would have changed the parties’ fundamental positions. Moreover, the motion is
one of considerable significance, involving the otherwise mandated award of additional judgment amounts
in the millions of dollars. It would be entirely disproportionate to dismiss the motion outright in response
to this Rule 7.1 violation.
In response to the Sun Funds’ initial opposition to
the motion to amend, the Pension Fund’s counsel
2

Monetary sanctions are also available under the Local
Rule. See Martinez v. Hubbard, 172 F. Supp. 3d 378, 385 (D.
Mass. 2016). But the Sun Funds have not requested monetary
sanctions and, in any case, I find them unnecessary and inappropriate for the same reasons I decline to sanction the Pension
Fund’s failure to consult about the motion by denying the underlying motion.

App. 34
presented a compelling personal explanation for her
failure to comply with Rule 7.1 in connection with this
motion. Had this explanation been invoked in the consultation, the Local Rule 7.1 grounds to oppose the
Pension Fund’s motion to amend would have been obviated, as is evidenced by the withdrawal of this
ground for opposition by the Sun Funds after receiving
the explanation belatedly provided by Pension Fund’s
counsel. While I reaffirm the central role that Local
Rule 7.1 plays in the procedures of this district, the
particular violation before me does not require sanction. Nevertheless, I will use this occasion to outline
the practice pursued in this session regarding any motion filed without a Local Rule 7.1 certification regarding consultation.
Prompted by the issues raised by this motion and
an awareness that Local Rule 7.1 certification has been
subject to considerable backsliding since its adoption,
I have introduced a practice in my session of denying
– without prejudice to compliant resubmission – any
motion not accompanied by a Local Rule 7.1 certification in the absence of a showing that obtaining such a
certification is not feasible. While counsel may view
consultation as inefficient or, otherwise, a needless
bother and consider the likelihood of resolving or narrowing the issues unlikely, there is no harm in requiring that such an attempt be made. In fact, there is
considerable benefit to requiring lawyers to take the
time to discuss motion practice because it provides an
occasion short of formal court hearings for adversaries

App. 35
to consider their respective cases from something
broader than a blinkered unilateral approach.
Of course, if counsel are not prepared to comply
with the spirit of the Rule, the immediate substantive
benefit of consultation is unlikely to be fully satisfactory. But compliance with the formalities anticipated
by the letter of the rule is a necessary first step. The
alternative of ignoring non-compliance with the formality will ultimately make a dead letter of the Rule.
Attaching increased transaction costs for non-compliance, such as likely denial and the requirement of compliant resubmittal in order to secure the relief sought,
seems a measured step to encourage that the Rule’s
letter – and, hence, its spirit – will be observed.
III.

FEDERAL RULES OF CIVIL
PROCEDURE 59 AND 54

In addition to their broad initial challenge under
Local Rule 7.1, the Sun Funds also attack the propriety
of awarding attorneys’ fees and costs at this point
given the interplay between Federal Rules of Civil Procedure 54 and 59. This aspect of their argument does
not extend to the Pension Fund’s claims for interest
and liquidated damages, nor do the Sun Funds contest
the methods of calculation of the interest and liquidated damages sought.
The Sun Funds assert that attorney fees and costs
are not appropriate subjects of a Rule 59 motion, because they are instead properly addressed under a
Rule 54(d) motion for fees. Under clear Supreme Court

App. 36
precedent, this is so as a general proposition. White v.
New Hampshire Dep’t of Employment Sec., 455 U.S.
445, 451 (1982) (“[F]ederal courts generally have invoked Rule 59(e) only to support reconsideration of
matters properly encompassed in a decision on the
merits. By contrast, a request for attorney’s fees . . .
raises legal issues collateral to the main cause of action
– issues to which Rule 59(e) was never intended to apply.”) (internal citations omitted);3 see also Bender v.
Freed, 436 F.3d 747, 750 (7th Cir. 2006) (under ERISA,
attorneys’ fees properly brought under Rule 54).
The difference in vehicle for pursuing attorneys’
fees involves a difference in the required timing for
seeking them. Rule 59 motions may be filed up to 28
days after judgment; the Pension Funds’ motion was
filed on the 28th day. Rule 54 motions for attorneys’
fees, in contrast, must be filed “no later than 14 days
after the entry of judgment.” Fed. R. Civ. P.
54(d)(2)(B)(i). Thus, at first glance, the portion of the
Pension Funds’ motion seeking attorneys’ fees –
3

In contrast, Rule 59(e) is the “proper procedural vehicle” for
awards of interest, whether mandatory or discretionary. Crowe v.
Bolduc, 365 F.3d 86, 92-93 (1st Cir. 2004) (citing Osterneck v.
Ernst & Whinney, 489 U.S. 169 (1989)). The liquidated damages
at issue here are clearly not “collateral” to the merits of the case
– indeed, they are tightly linked to interest under the statutory
scheme and are meant to “remedy the injury giving rise to the
[underlying] action”; consequently, they likewise fall within the
ambit of Rule 59. Cf. Osterneck, 489 U.S. at 176 n.3 (quoting Budinich v. Becton Dickinson & Co., 486 U.S. 196, 200 (1988)). Understandably, the Sun Funds do not challenge the interest and
liquidated damages sought on grounds that Fed. R. Civ. P. 59(e)
is not the proper grounds to pursue them.

App. 37
effectively a Rule 54 motion – seemingly came two
weeks late and should be denied. Alexander v. Weiner,
No. 09-10776-JLT, 2013 WL 5817578, at *3 (D. Mass.
Oct. 28, 2013) (failure to timely file Rule 54 motion
grounds for denial) (quoting Logue v. Dore, 103 F.3d
1040, 1047 (1st Cir. 1997)).
The interplay between Rules 54 and 59 in this
case, however, effectively revives the Pension Fund’s
motion. The timely-filed Rule 59 motion and its success
in securing liquidated damages and interest undoes
the finality of the earlier March 28, 2016 judgment,
and consequently renders a new Rule 54 motion for attorneys’ fees timely. While the First Circuit has not definitively addressed this issue, see Drumgold v.
Callahan, 806 F. Supp. 2d 428, 434 (D. Mass. 2011), I
conclude that the applicability of Rule 54 in this setting is clear and supportive of the Pension Fund’s initiative to pursue attorney fees through a motion to
amend the judgment.
Rule 54(d) starts the clock for a motion for attorneys’ fees from the date of “judgment.” As the Advisory
Committee Notes underscore, this refers to “final judgment.” Fed. R. Civ. P. 54 Advisory Committee Note
(1993); see also Miltimore Sales, Inc. v. Int’l Rectifier,
Inc., 412 F.3d 685, 688 (6th Cir. 2005). And, as the Advisory Committee Notes to Rule 59 make plain, Rule
59 motions “affect the finality of the judgment.” Fed. R.
Civ. P. 59 Advisory Committee Notes (1995). The judgment only becomes final once the Rule 59 motion is disposed of. At that point, the 14-day clock of Rule 54(d)
recommences.

App. 38
Case law outside the First Circuit supports this
approach. The Courts of Appeals that have considered
this issue have all reached the conclusion that any
Rule 59 motion resets the 14-day period for attorneys’
fee motions.4 So, too, has the only reported decision in
this District – of which I am aware – that has confronted the issue. Drumgold, 806 F. Supp. 2d at 435.
Notably, these courts do not distinguish between
post-trial motions made before and after the expiration
of the period for fee requests, as the Sun Funds argue
must be done. Because a Rule 59 motion destroys the
finality of judgment, its effect on the timing of fee
4

Radtke v. Caschetta, 822 F.3d 571, 574 (D.C. Cir. 2016)
(“[W]hile appellants’ fee petition originally was untimely, the
court’s entry of an amended judgment created ‘[a] new period for
filing’ and cured that untimeliness. . . .”); Bailey v. Cty. of Riverside, 414 F.3d 1023, 1025 (9th Cir. 2005) (“[T]he Rule 54(d)(2)(B)
motion for fees is timely if filed no later than 14 days after the
resolution of a Rule 50(b), Rule 52(b), or Rule 59 motion.”); Miltimore Sales, Inc. v. Int’l Rectifier, Inc., 412 F.3d 685, 691 (6th Cir.
2005) (“On January 2, 2002, International Rectifier, Inc. filed a
Rule 59 motion that destroyed the finality of the December 19,
2001 judgment. Thus, while we only know this retrospectively,
and Miltimore Sales, Inc. could not have known this at the time,
the fourteen-day period did not begin to run.”); Members First
Fed. Credit Union v. Members First Credit Union of Florida, 244
F.3d 806, 807 (11th Cir. 2001) (per curiam) (same); Weyant v.
Okst, 198 F.3d 311, 315 (2d Cir. 1999) (“Because the 14–day period established by Rule 54(d)(2)(B) for the filing of a motion for
attorneys’ fees was introduced in large part to avoid piecemeal
appeals of merits and fee questions, that 14–day period begins to
run with the entry of a final judgment. And because the finality
of a judgment is negated by the timely filing of a motion under
Rule 50(b), 52(b), or 59, we conclude that a Rule 54(d)(2)(B) motion is timely if filed no later than 14 days after the resolution of
such a Rule 50(b), 52(b), or 59 motion.”).

App. 39
requests is not a matter of tolling the 14-day period, in
which case the relative timing of the post-trial motion
might be of import, but rather the creation of an altogether new 14-day period by an amended judgment.
The 2009 revisions to the Federal Rules of Civil Procedure, which changed the relevant time periods, have
not undercut this approach. Sorenson v. Wolfson, 170
F. Supp. 3d 622, 628 (S.D.N.Y. 2016) (“Cases decided
after the 2009 amendments have continued to interpret Weyant [v. Okst, 198 F.3d 311 (2nd Cir. 1999)] as
establishing that a ‘motion for attorney’s fees is timely
under FRCP 54(d)(2)(B) when filed within 14 days after the entry of judgment, or within 14 days of the resolution of postjudgment motions.’ ”) (quoting Farinella
v. EBay, Inc., No. 05–CV–1720, 2011 WL 1239959, at *2
(E.D.N.Y. Mar. 30, 2011)).5
Indeed, following the 2009 revisions, the D.C. Circuit joined its sister circuits in holding that “a fee petition is timely if filed no later than 14 days after the
resolution of a Rule 50(b), Rule 52(b), or Rule 59

5

Additionally, Sorensen directs attention to Slep–Tone
Entm’t Corp. v. Karaoke Kandy Store, Inc., 782 F.3d 313, 317 (6th
Cir. 2015); Watrous v. Borner, 995 F. Supp. 2d 84, 88 (D. Conn.
2014) (“[U]nder Weyant, a party’s motion for attorney’s fees is
timely, unless filed outside the fourteen-day window following the
court’s last ruling on any pending Rule 50(b), 52(b), or 59 motions. . . .”), appeal dismissed, (Sept. 19, 2014); Registry Sys. Int’l,
Ltd. v. Hamm, No. 08cv00495 (PAB)(MJW), 2012 WL 4476635, at
*5 (D. Colo. Sept. 28, 2012) (“[The plaintiff] is correct that the 14
day period does not begin to run until after the Court rules on the
Rule 59(e) motions.”). Id.

App. 40
motion.” Radtke v. Caschetta, 822 F.3d 571, 573 (citations and internal quotation marks omitted).
The only divide among courts concerns whether all
Rule 59 motions reset the clock, or whether only successful motions do so. One district court has held the
latter. See Mary M. v. N. Lawrence Cmty. Sch. Corp.,
174 F.R.D. 419, 422 (S.D. Ind. 1997). In Mary M., Chief
Judge Barker relied on the text of Rule 54, which sets
forth the 14-day time limit; on a comparison of Rule 54
to Federal Rule of Appellate Procedure 4(a), which
more explicitly discusses the effect of post-judgment
motions on the finality of judgment; and, most persuasively, on the Advisory Committee Notes to Rule 54,
which state that “A new period for filing will automatically begin if a new judgment is entered following a
reversal or remand by the appellate court or the granting of a motion under Rule 59.” Id.; Fed. R. Civ. P. 54
Advisory Committee Notes (1993) (emphasis supplied).
Chief Judge Barker emphasized that had she “granted
a motion for a new trial or for amendment of the judgment under Fed. R. Civ. P. 59, thus vacating or changing the original judgment, a new period for filing fee
petitions would have begun at that time.” Mary M., 174
F.R.D. at 422.6
6

The Sun Funds attempt to distinguish this aspect of Mary
M. by arguing that the Rule 59(e) motion at issue here does not
truly change the original judgment because it does not affect the
merits of the case or the right to attorneys’ fees. This is an area of
law, however, where the Supreme Court has instructed that implementing a “bright-line rule” is particularly important. Budinich v. Becton Dickinson & Co., 486 U.S. 196, 202 (1988). The
Federal Rules of Civil Procedure have provided such a bright-line

App. 41
In this case, I will first grant the Pension Fund’s
Rule 59 motion as to interest and liquidated damages.
The question of when a Rule 54 fees motion may be
brought when a Rule 59 motion is denied is consequently not before me. But as to whether a successful
Rule 59 motion allows for another 14 days during
which attorneys’ fees can be requested, there can be no
doubt. This case falls under the clear instructions of
the Advisory Committee Notes requiring a “new period
for filing” fee petitions. Fed. R. Civ. P. 54 Advisory Committee Notes (1993).
Given an amendment of the judgment under Fed.
R. Civ. P. 59, the Pension Fund requested attorneys’
fees in a timely manner and subsequently submitted
the requisite estimate and documentation of a specific
fee amount. Fed. R. Civ. P. 54(d)(2)(B)(iii). Because the
request for attorneys’ fees is procedurally sound and
mandatory under the MPPAA, I must grant reasonable
fees and costs if the underlying judgment is sustained.
In addressing requests for attorney fees, I must
choose when, relative to the pending appeal, to rule on
that request. When attorneys’ fees are sought and an
appeal on the merits of the case has also been taken, a
court has three options. It “may rule on the claim for
fees, may defer its ruling on the motion, or may deny
the motion without prejudice, directing under subdivision (d)(2)(B) a new period for filing after the appeal
rule. I decline to blur that line with case-by-case determinations
of when an amendment of a judgment, involving merits questions,
sufficiently addresses the “true” merits of the case.

App. 42
has been resolved.” Fed. R. Civ. P. 54, Advisory Committee Notes to 1993 Amendments. The First Circuit
has instructed that, in general, “the better practice . . .
[is] to set the fee at the conclusion of the trial, allowing
the parties to appeal the fee award along with any substantive issues.” Tobin v. Liberty Mut. Ins. Co., 553 F.3d
121, 149 (1st Cir. 2009). That guidance notwithstanding, the First Circuit also recognizes the discretion of a
district court to choose between these options for
“pragmatic” reasons such as “judicial efficiency.” Id.
Although some districts have developed local rules requiring a particular approach, see, e.g., D. Me. Local
Rule 54.2 (fee applications must be made after final
disposition of appeals), the District of Massachusetts
has not done so.
Adjudicating fee disputes immediately, rather
than after the conclusion of an appeal, carries certain
benefits. In particular, it allows resolution “while the
services performed are freshly in mind,” and it facilitates the joint appellate review of fee issues “at the
same time as review on the merits of the case.” Fed. R.
Civ. P. 54, Advisory Committee Notes to 1993 Amendments. For this reason, it is common for courts to address fees even while appeals are pending. In re Unisys
Corp. Retiree Med. Benefits ERISA Litig., No. CIV.A.
03-3924, 2007 WL 4287393, at *2 (E.D. Pa. Dec. 4,
2007) (collecting cases).
On the other hand, judicial efficiency often supports tabling the fee issue until after appeal. See Fed.
R. Civ. P. 58, Advisory Committee Notes to 1993
Amendments (“Particularly if the claim for fees

App. 43
involves substantial issues or is likely to be affected by
the appellate decision, the district court may prefer to
defer consideration of the claim for fees until after the
appeal is resolved.”). This is especially so where courts
foresee an appellate decision potentially affecting the
availability of fees. See, e.g., Madrid v. Concho Elementary Sch. Dist. No. 6 of Apache Cty., No. CV-07-8103PCT-DGC, 2010 WL 2991562, at *1 (D. Ariz. July 26,
2010); Certusview Techs., LLC v. S & N Locating Servs.,
LLC, No. 2:13CV346, 2015 WL 3466842, at *2 (E.D. Va.
June 1, 2015). Balancing these values is deeply context-dependent. Compare Barrella v. Vill. of Freeport,
56 F. Supp. 3d 169, 173 (E.D.N.Y. 2014) with Mhany
Mgmt. Inc. v. Inc. Vill. of Garden City, 44 F. Supp. 3d
283, 286 (E.D.N.Y. 2014) (same judge, in similar cases,
reaching different conclusions based on procedural
posture of each case and appeal).
In this circumstance, I will follow the First Circuit’s preferred approach and resolve the fee dispute
at this point. This sequencing offers particular benefits
here, where there is no factual dispute over the reasonable amount of attorneys’ fees owed; only the previously discussed legal dispute about procedural
elements of the fee requests is at issue. The uncontested figure of attorneys’ fees and costs incurred by
the Pension Fund at this point is $340,977.58 and
will be added to the judgment in this case if the underlying judgment is maintained. I turn now to address
that issue.

App. 44
IV. THE UNDERLYING
REMAND DETERMINATION
I have taken the occasion provided by consideration of the motion to amend the judgment to engage in
a full reconsideration of the decision I initially issued
in support of the judgment on remand. After extensive
re-evaluation, I am fully satisfied that the remand decision faithfully follows the teachings of the First Circuit’s remand directions. See generally Sun Capital
Partners III v. New England Teamsters, 724 F.3d 129
(1st Cir. 2013). I am satisfied as well that my decision
granting summary judgment on remand to the Pension
Fund fairly accommodates the “tensions that stem irremediably from differences between the goals of the
MPPAA and the formalism of the tax code.” Sun Capital Partners III, 172 F. Supp. 3d at 460. That decision
on remand, supplemented by this Memorandum and
Order, continues to reflect my best justification for the
proper resolution of this exceedingly fact intensive and
complex matter and I find no reason to modify, refine,
or reformulate the grounds for that resolution.
Nevertheless, I am acutely aware that the result
disrupts hopeful expectations by the private equity
plaintiffs in this case and in other similar settings
where withdrawal liability might be asserted against
them. However, in the absence of further meaningful
direction from Congress and/or orderly rulemaking by
the PBGC, cf. Sun Capital Partners III, 724 F.3d at 148,
the current applicable law in this area requires the resolution reflected in the amended judgment that will be

App. 45
issued in connection with this Memorandum and Order.
The private equity plaintiffs here chose in their
calculus of risk and return to structure their business
to breach what the First Circuit accurately characterized as “fine lines,” Sun Capital Partners III, 724 F.3d
at 148, governing the circumstances in which withdrawal liability will be imposed upon those who invest
in distressed businesses. Their expectations, in the absence of definitive supporting authority, that this effort
to avoid ERISA obligations would be without consequence was a risky gambit. Its choice has resulted in a
diminished return for their investments. Any recalibration of the reasonable expectations of investors in
companies with ERISA obligations must come from
some source other than courts applying current applicable law.
V.

CONCLUSION

For the reasons set forth above, the Pension Fund’s
Motion to Amend the Judgment [Dkt. No. 185] is
GRANTED IN PART. In accordance with Fed. R. Civ. P.
59, the Judgment of this court will be amended to include interest in the amount of not less than
$2,253,787.76; liquidated damages in the amount of
$903,307.80; amendment of the judgment having been
allowed, I GRANT the remainder of the Motion [Dkt.
No. 185] pursuant to Fed. R. Civ. P. 54, awarding attorneys’ fees and costs in the amount of $340,977.58.
Given the passage of time since the filing of the Motion

App. 46
to Amend, the parties shall file on or before November
30, 2018 a proposed agreed upon amended judgment
bringing current the time value dimension to the
amended judgment being entered.
/s/ Douglas P. Woodlock
DOUGLAS P. WOODLOCK
UNITED STATES DISTRICT JUDGE

App. 47
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
SUN CAPITAL PARTNERS
III, LP, SUN CAPITAL PARTNERS III QP, LP, and SUN
CAPITAL PARTNERS IV, LP,

)
)
)
)
)
Plaintiffs/
) CIVIL ACTION NO.
Counter-Defendants,
) 10-10921-DPW
v.
)
)
NEW ENGLAND TEAM)
STERS AND TRUCKING
INDUSTRY PENSION FUND, )
)
Defendant/
)
Counter-Plaintiff.
)
MEMORANDUM & ORDER
March 28, 2016
This case addresses whether the plaintiffs – private
equity funds, referred to herein as “Sun Fund III” and
“Sun Fund IV” – may be held liable under the Multiemployer Pension Plan Amendments Act (“MPPAA”)
for the pro rata share of unfunded vested benefits owed
to a multiemployer pension fund by a bankrupt company, Scott Brass, Inc. (“SBI”), that is owned by the
funds. The plaintiffs seek a declaratory judgment that
they are not liable for the payment of such withdrawal
liability. The defendant has counter-claimed seeking a
declaratory judgment that the private equity funds are
jointly and severally liable for the amounts owed by
Scott Brass Inc.

App. 48
In September of 2011, the plaintiffs and defendant
filed cross-motions for summary judgment. In September
2012, I granted the plaintiffs’ motion for summary judgment and denied that of the defendant. On appeal,
the First Circuit reversed in part, vacated in part, and
affirmed in part my grant of summary judgment, and
remanded the case to this court for further proceedings
to answer two questions: (1) Whether Sun Capital
Partners III, LP and Sun Capital Partners III QP, LP
are engaged in “trade or business”; and (2) Whether the
plaintiffs were under “common control” with Scott
Brass, Inc. within the meaning of 29 U.S.C. § 1301(b)(1).
The facts relevant to this dispute have been described extensively in the two prior reported opinions
in this litigation. Sun Capital Partners III, LP v. New
Eng. Teamsters & Trucking Indus. Pension Fund, 903
F. Supp. 2d 107 (D. Mass. 2012), Sun Capital Partners
III, LP v. New Eng. Teamsters & Trucking Indus. Pension Fund, 724 F.3d 129 (1st Cir. 2013). I will assume
general familiarity with those opinions and discuss
facts more specifically in connection with the remaining questions.1
For the sake of clarity, I provide a brief restatement of the entities involved.2 Scott Brass, Inc. (“SBI”),
1

As discussed further below, the parties have made some
clarifications, corrections, and additions to those facts relied upon
by me and by the First Circuit in the evaluation of the previous
motions for summary judgment.
2
I have also attached a chart as Appendix A to provide a
simplified illustration of the ownership and managerial roles of
the several plaintiff related entities.

App. 49
is the entity that incurred withdrawal liability under
the MPPAA after it went bankrupt and ceased payments into the defendant Pension Fund. At the time of
its bankruptcy, it was owned by Scott Brass Holding
Corp., which in turn was owned by Sun Scott Brass,
LLC. Sun Scott Brass, LLC was formed by Sun Fund
III, which owned 30 percent of the LLC, and Sun Fund
IV. which owned the other 70 percent. The two Sun
Funds are investment funds and limited partnerships.
Their general partners are Sun Capital Advisors III,
LP and Sun Capital Advisors IV, LP, respectively, and
those general partners each have a limited partner
committee made up of Marc Leder and Rodger Krouse.
Leder and Krouse are also the co-CEOs of Sun Capital
Advisors, Inc., which advises the Sun Funds, structures their deals and provides management consulting
and employees to the portfolio companies owned by the
Funds. Additional detail is provided in the prior opinions and, as needed, in the opinion below; additionally,
an organizational chart is provided as an appendix to
this memorandum.
The parties have filed renewed cross-motions for
summary judgment setting forth their positions on the
questions posed by the First Circuit.
I.

WHETHER THE SUN FUNDS ARE ENGAGED IN TRADE OR BUSINESS

The Multiemployer Pension Plan Amendments
Act of 1980 (“MPPAA”) provides: “For purposes of this
subchapter, under regulations prescribed by the

App. 50
corporation, all employees of trades or businesses
(whether or not incorporated) which are under common control shall be treated as employed by a single
employer and all such trades and businesses as a single employer.” 29 U.S.C. § 1301(b)(1).
In the previous appeal of this case, the First Circuit set forth the standard for determining whether an
investor is a “trade or business” under the statute. The
First Circuit stated that, under the MPPAA, “[t]o impose withdrawal liability on an organization other
than the one obligated to the [pension] Fund, two conditions must be satisfied: 1) the organization must be
under ‘common control’ with the obligated organization, and 2) the organization must be a trade or business.” Sun Capital, 724 F.3d at 138 (quoting
McDougall v. Pioneer Ranch Ltd. P’ship, 494 F.3d 571,
577 (7th Cir. 2007)).
The First Circuit explained that “[w]here the
MPPAA issue is one of whether there is mere passive
investment to defeat pension withdrawal liability, we
are persuaded that some form of an ‘investment plus’
approach is appropriate when evaluating the ‘trade or
business’ prong of § 1301(b)(1), depending on what the
‘plus’ is.” Sun Capital, 724 F.3d at 141. Declining “to set
forth general guidelines for what the ‘plus’ is,” the First
Circuit found it sufficient that “on the undisputed facts
of this case, Sun Fund IV is a ‘trade or business’ for
purposes of § 1301(b)(1).” Id. In reaching that determination, the First Circuit adopted a “very fact-specific
approach . . . tak[ing] into account a number of factors
[and] cautioning that none is dispositive in and of

App. 51
itself.” Id. Many of the factors leading to the determination that Sun Fund IV was engaged in trade and
business are commonly established as to both Sun
Fund IV and Sun Fund III:
The Sun Funds make investments in portfolio
companies with the principal purpose of making a profit . . . [T] he Sun Funds have also undertaken activities as to the SBI property. The
Sun Funds’ limited partnership agreements
and private placement memos explain that
the Funds are actively involved in the management and operation of the companies in
which they invest . . . Each Sun Fund agreement states, for instance, that a “principal
purpose” of the partnership is the
“manag[ement] and supervisi[on]” of its investments. The agreements also give the general partner of each Sun Fund exclusive and
wide-ranging management authority . . . the
Sun Funds’ controlling stake in SBI placed
them and their affiliated entities in a position
where they were intimately involved in the
management and operation of the company
. . . through a series of appointments, the Sun
Funds were able to place SCAI employees in
two of the three director positions at SBI, resulting in SCAI employees controlling the SBI
board.
Sun Capital, 724 F.3d at 141-143. The First Circuit’s
determination that Sun Fund IV was a “trade or business” also relied on one characteristic that the court
was unable to determine was also a characteristic of
Sun Fund III:

App. 52
[T]he Sun Funds’ active involvement in
management under the agreements provided
a direct economic benefit to at least Sun Fund
IV that an ordinary, passive investor would
not derive: an offset against the management
fees it otherwise would have paid its general
partner for managing the investment in SBI.
Here, SBI made payments of more than
$186,368.44 to Sun Fund IV’s general partner,
which were offset against the fees Sun Fund
IV had to pay to its general partner. Id. at 143
(footnotes omitted).3
The First Circuit held that the sum of these “plus”
factors satisfied the “investment-plus” test for the Sun
Fund IV. However, because it was unable to determine
whether Sun Fund III received a similar economic benefit in the form of an off-set of fees otherwise owed by
Sun Fund III to its general partner, the First Circuit
was unable to determine whether Sun Fund III was
engaged in a “trade or business.” The First Circuit left
that issue to this court’s determination: “We remand
3

In its initial statement of facts in support of its motion for
summary judgment, the Pension Fund stated that the amount of
the management fees paid by Scott Brass, Inc. was $186,368.44 –
a figure adopted by the First Circuit. In their response to the
statement of facts, the Sun Funds denied the accuracy of the Pension Fund’s assertion and stated that “the payments made by SBI
were greater than $186,368.44.” In response to the Pension
Fund’s supplemental statement of facts, the plaintiffs indicated
that “Scott Brass, Inc. paid $664,027.78 in management fees to
Sun Capital Partners Management IV, LLC.” The defendant
concedes that the $186,368.44 figure is inaccurate and that
$664,027.78 is the correct figure. The difference in the figures is,
nevertheless, immaterial to the resolution of this lawsuit.

App. 53
the § 1301(b)(1) claim of liability to the district court to
resolve whether Sun Fund III received any benefit
from an offset from fees paid by SBI and for the district
court to determine the issue of common control.” Id. at
148-49.
On remand, the Sun Funds contend that the
First Circuit, as well as this court in its previous summary judgment opinion, misstated relevant facts regarding the management fee offsets accruing to the
Sun Funds as a result of the management of SBI. As
they explain, “[i]n this case, Sun Fund III did receive
an offset of the management fee owed to its GP from
fees paid by SBI . . . Ironically, Sun Fund IV did not.”
To sort out this state of affairs, I will set forth the
facts as I now understand them to be and then analyze
those facts under the rubric set forth by the First Circuit.
A. The Sun Fund III and Sun Fund IV Limited
Partnership Agreements
Under the limited partnership agreements (the
“LP Agreements”) establishing Sun Fund III and Sun
Fund IV,4 all partners, including the general partners
of each Fund (Sun Capital Advisors III, LP and Sun
Capital Advisors IV, LP, respectively), are obligated to
make contributions to the capital of the partnerships
upon receiving a capital call. The amount of the
4

The agreements setting up the funds appear identical in all
relevant respects.

App. 54
contributions required of the General Partners are determined based upon the pro rata share of each partner’s commitments.(Jt. Ex. 12, § 5.1(a)-(b)).5
In addition to being obligated to make capital contributions to the Sun Funds, the General Partners are
entitled to an annual management fee (the “Management Fee”) from the Sun Funds, calculated as a percentage of the aggregate commitments or invested
assets.(Jt. Ex. 12, § 5.1(a)-(b)).
Under 5.1(c) of the Sun Fund LP Agreements, the
General Partners may elect to “waive” their management fees, generating what is termed in the LP Agreements a “Waived Fee Amount.” These “Waived Fee
Amounts” reduce the General Partners’ obligation to
contribute to future capital calls made by the Sun
Funds. Section 3.1(a)(ii) of the Sun Fund agreement
provides:
[A]t such time as the General Partner delivers
any Capital Call Notice, the General Partner’s
required Capital Contributions in respect of
anticipated or actual Investments and/or expenses incurred directly in connection with
the making, maintaining or disposing of such
Investments, at the General Partner’s election, shall be reduced by an amount designated by the General Partner up to the lesser
of (A) the amount of Capital Contributions
otherwise required to be made by the General
5

Under the LP Agreement, the General Partner’s Commitment is not less than 5% of the aggregate commitments of all the
partners. (Jt. Ex. 12, “Commitment” Definition)

App. 55
Partner . . . or (B) the amount of any existing
Unapplied Waived Fee amounts. . . .
In addition to waivers, the Management Fee owed
by the Sun Funds to its General Partner may be reduced in a second way. Under Section 5.1(d) of the LP
Agreement, after the application of Waived Fee
Amounts under Section 5.1(c), the Management Fee is
further reduced by “100% of any Directors Fees, 50% of
any Corporate Services Fees, 50% of any Investment
Banking Fees and 50% of any Net Fees” as well as by
the aggregate amount of any “private placement fees”
(the “Management Fee Offsets”). The Sun Funds have
explained the function of this term of the limited partner agreements thus: “[T]he limited partners of the
Sun Funds negotiated offsets of the management fees
they owed the general partners of the Sun Funds for
the payment of other fees to the general partners such
as those covered under the Management Services
Agreement [between Scott Brass Holding Corp and
SCP Management IV, LLC.].” [Dkt. 149 Resp. No. 115].
When no Management Fees are owed or the
amount of Management Fee Offsets is greater than the
Management Fees owed (after taking into account any
fee waivers elected by the General Partners), Management Fee Offset “carryforwards” are generated, which
can be used to offset future Management Fees owed by
the Sun Funds to their General Partners: In the event
that the amount of Directors Fees, Corporate Services
Fees, Investment Banking Fees, Net Fees or private
place fees to be applied against the Management Fee
exceeds the Management Fee for the immediately

App. 56
succeeding six-month period, such excess shall be carried forward to reduce the Management Fee payable in
the following six-month periods.
B. The Sun Scott Brass Holding Corp. Management Agreement
Scott Brass Holding Corp. and Sun Capital Partners Management IV, LLC (“SCP Management IV”)
(which is a subsidiary of Sun Capital Advisors IV, LP)
entered into an agreement (the “Management Agreement”) pursuant to which the latter would provide
“management and consulting services regarding the
business of [SBI].” The fees paid to SCP Management
IV under this Management Agreement are offset
against the Management Fees, or, if no Management
Fees are presently owed, are carried forward as potential future offsets pursuant to Section 5.1(d) of the LP
Agreements.
In addition, pursuant to Section 5.1(d) of the LP
Agreements, the amounts paid to SCP Management IV
are allocated pro rata between Sun Fund III and Sun
Fund IV based upon their proportionate holdings in
Sun Scott Brass, LLC – that is 70% to Sun Fund IV
and 30% to Sun Fund III.
C. The Payment of Management Fees, Offsets,
and Waivers to Sun Fund III
Scott Brass, Inc. paid $664,027.78 in management
fees to SCP Management IV. As described above, 30%

App. 57
of this amount is allocated as a potential Management
Fee Offset or Carryforward to Sun Fund III and 70% is
allocated to Sun Fund IV.
In each year from 2005 until 2012 (spanning from
the time of the purchase of Scott Brass, Inc., in February 2007 until Scott Brass, Inc.’s bankruptcy in November 2008), Management Fees were owed by Sun
Fund III to its general partner and, accordingly, the
amount owed by Sun Fund III was reduced by the
amount paid to SCP Management IV by Scott Brass
Holding Corp. and allocated to Sun Fund III.
Therefore, as the Sun Funds have stated and in
answer to the question posed by the First Circuit, Sun
Fund III has received an economic benefit in the form
of “an offset against the management fees it otherwise
would have paid its general partner for managing the
investment in SBI.” Sun Capital Partners, 724 F.3d at
143. The “trade or business” prong of the test for liability under § 1301(b)(1) of the MPPAA is satisfied as to
Sun Fund III.
D. The Payment of Management Fees, Offsets,
and Waivers to and From Sun Fund IV
Although I have answered the first question posed
by the First Circuit and am bound by the law of the
case as determined by the First Circuit, Ellis v. United
States, 313 F.3d 636, 646-48 (1st Cir. 2002), I feel obligated to evaluate the Sun Funds’ contention that the
First Circuit’s holding that the “trade or business”

App. 58
requirement has been satisfied as to Sun Fund IV was
based upon an erroneous factual determination.
Scott Brass, Inc. was acquired by the Sun Funds
in February of 2007 and entered bankruptcy (incurring
withdrawal liability under the MPPAA) in November
2008. Although Sun Fund IV paid and owed management fees in 2005 and 2006, before the acquisition of
Scott Brass, Inc., and in 2010, 2011, and 2012, after the
date of the bankruptcy, the General Partner of Sun
Fund IV waived its management fees for the years
2007 through 2009. Therefore, from 2007 through
2009, although fees were paid to SCP Management IV
by Scott Brass Holding Corp., those fees did not benefit
Sun Fund IV by reducing the Management Fees owed
to its General Partner in those years. Instead, the SCP
Management IV fees generated management offset
“carryforwards” for potential use in the years after SBI
entered bankruptcy.
The Sun Funds contend that these “carryforwards” do not constitute a “direct economic benefit” because they did not offset any management fees during
the time that SBI was partially owned by Sun Fund IV
prior to its bankruptcy and because they represent
only a “contingent” benefit to that fund during the
years after. For the reasons below, I believe that the
Sun Funds’ arguments offer too crabbed a view of the
test articulated by the First Circuit.

App. 59
1. The “Carryforwards” Represent a “Benefit” to
the Sun Funds
The first, and I believe most pertinent, fact to be
addressed is whether Sun Fund IV obtained some benefit from the management activities undertaken by
SCP Management IV acting under the direction of
Sun Capital Advisors IV, LP, which is Sun Fund IV’s
agent and general partner.
The notes to Sun Fund IV’s financial statements
describe the Management Fee Offset carryforwards as
follows:
In accordance with the Partnership Agreement, the Management Fees that have otherwise not been irrevocably waived shall be
reduced for certain other payments made to
the General Partner as defined in the Partnership Agreement and upon the occurrence of
certain future events also as defined in the
Partnership Agreement, including a portion of
the amounts paid to the General Partner or
its affiliates for Directors Fees, Corporate Services Fees, management fees and Investment
Banking Fees (the “Management Fee Offset”).
As of December 21, 2008, the Management
Fee Offset carryforward was $58,748,506.6

6

In their most recent supplement to their statement of facts,
the Pension Fund has stated that as of December 31, 2013, the
amount of the management fee offset carryforward for Sun Fund
IV was $87,345,798. The Sun Funds have admitted the accuracy
of this statement. Regardless, the precise magnitude of the carryforwards is irrelevant for present purposes.

App. 60
The $58,748,506, some portion of which is attributable
to the management of Scott Brass, Inc., represents a
potential reduction in the future payment of management fees. Although contingent on uncertain future
events and although the economic value of the carryforwards may be something less than the reported
dollar figure of $58,748,506 (in order to reflect the uncertainty of realization), the potential to reduce future
management fees by $58 million is a valuable asset accruing to Sun Fund IV.
In its briefing, the Pension Fund has suggested
that the carryforwards are akin to gift certificates – redeemable in the future for reductions in Management
Fees owed. The Sun Funds convincingly explain that
this is wrong; the carryforward cannot be used in the
present and may turn out to be valueless in the future.
Given that explanation, the better analogy might be an
out-of-the-money stock option or a lottery ticket.7 Although the carryforwards promise neither an immediate payment nor a sure one, they represent a valuable
asset which one might rationally pay some amount for
– though rationally less than the amount of the potential future payout as a discount for the uncertainty.
This value accrues to the Sun Funds at the time these
carryforwards are received – and not only upon the
7

The lottery ticket metaphor might be taken to suggest a low
probability that the contingent benefit will be realized in the future. But the relevant characteristic of the comparison is not the
relative probabilities; it is rather that the future value of the item
– either lottery ticket or carryforward – is not currently known
with precision, but, despite this, the present ownership of the opportunity for future enrichment is itself of some value.

App. 61
realization of the reduction in management fees – and
so Sun Fund IV received a valuable benefit because of
the management activities undertaken by SCP Management IV before Scott Brass, Inc.’s bankruptcy.
The Sun Funds argue that the carryforwards do
not satisfy the First Circuit’s test because they do not
constitute a “direct economic benefit,” suggesting that
this should be measured by whether they have an “impact on the financial performance or position of the
Funds in the periods in which they accumulate.” In a
similar vein, the Sun Funds suggest that carryforwards should be tested against the “constructive receipt” or “economic benefit” doctrines that relate to the
recognition of income for taxes purposes. See Reed v.
Commissioner, 723 F.2d 138, 142 and 147 n.6 (1st Cir.
1983) (“[U]nder the constructive receipt doctrine, a
taxpayer recognizes taxable income when he has an
unqualified, vested right to receive immediate payment”; “economic benefit requires the actual receipt of
property or the actual receipt of a right to receive property in the future, at which point, the doctrine asks
whether the property or the right confers a present
economic benefit with an ascertainable fair market
value.”) (citations omitted).
I do not believe that the First Circuit intended
that the trade or business determination on remand be
guided either by the accounting conventions adopted
by the Sun Funds or by tax rules relating to the timing
of the receipt of income. Although the First Circuit did
use the terms “direct economic benefit” and “economic
benefit,” it did not do so consistently, as would suggest

App. 62
their use as terms of art. Rather, the First Circuit variously described the offset of management fees as a “direct economic benefit,” an “economic benefit,” and
simply as “a benefit.” See, e.g., Sun Capital, 724 F.3d at
143, 148. The question put to this court by the First
Circuit was “whether Sun Fund III received any benefit
from an offset from fees paid by SBI.” Id. at 148-49. The
First Circuit’s opinion does not provide a basis for circumscribing the “investment plus” test such that it is
satisfied by only those benefits which are functionally
equivalent to immediately recognizable income.8
A less restricted test – evaluating whether the
Sun Funds have received “any benefit” from the management of Scott Brass, Inc. – is also more consistent
with the overall thrust of the First Circuit’s opinion
and the MPPAA. The MPPAA predicates liability upon
an entity’s involvement in “trade or business” and the
First Circuit’s opinion makes a distinction between engaging in “trade or business” and “mere passive investment,” the latter of which “defeat[s] pension liability.”
Id. at 141. In determining whether an entity’s receipt
8

More generally, the First Circuit made clear in its opinion
that it did not intend to provide a definitive and exclusive account
of what type of activities might satisfy its “investment plus” test
for purposes of § 1301(b)(1). See Sun Capital Partners III, LP v.
New Eng. Teamsters & Trucking Indus. Pension Fund, 724 F.3d
129, 141 (1st Cir. 2013). Thus, I do not conclude that this test can
be satisfied only by an economic benefit to the Sun Funds which
is precisely identical to that found by the First Circuit. Rather,
the benefit received is one element that is incorporated as part of
the First Circuit’s “very fact-specific approach . . . tak[ing] into account a number of factors [and] cautioning that none is dispositive
in and of itself.” Id.

App. 63
of benefits supports liability, the relevant distinction is
not the kind or timing of the benefit, but between those
benefits that “an ordinary, passive investor” would receive and those resulting from the Sun Funds’ “active
involvement in management.” Id. at 143. The benefit
described here – carryforwards with the potential to
offset future management fees owed by the Sun Funds
– are not available to an ordinary passive investor
who does not engage in management activities. Cf.
McDougall v. Pioneer Ranch Ltd. P’ship, 494 F.3d 571,
577-78 (7th Cir. 2007) (losses consistent with purpose
of trade or business).
Finally, I am guided to this conclusion by another
consideration. The “investment plus” analysis and the
question of whether the Sun Funds received benefits
from management activities are tests aimed to shed
light on whether an entity is engaged in “trade or business.” The tests suggested by the Sun Funds would introduce into this analysis considerations that are
wholly divorced from this fundamental underlying issue. Under the Sun Funds’ test, whether the Funds received an “economic benefit” would depend entirely
upon acts of separate entities, the Funds’ General
Partners, and upon their decisions whether or not to
waive Management Fees. That, in fact, is precisely the
case here – both Sun Funds III and Sun Funds IV engaged in identical activities. However, those activities
generated benefits in different forms because of the
different decisions made by their respective General
Partners. Similarly, the test proposed by the Funds
injects what appears to be a largely arbitrary timing

App. 64
dimension into the “trade or business” determination.
If the bankruptcy had occurred later – during or after
years in which Management Fees owed by the Funds
were actually offset by the carryforward – but all other
facts remained the same, the Sun Fund’s test would be
satisfied. I will not adopt the proposed test which
makes the receipt of an “economic benefit” contingent
on factors that are either arbitrary or irrelevant to the
ultimate determination that I must make – whether
the Sun Funds were engaged in trade or business.
The generation of Management Fee offset carryforwards is a valuable benefit that accrues to the
Sun Funds as a result of the Sun Funds’ management
activities relating to Scott Brass, Inc. This is sufficient
to satisfy the “investment plus” test articulated by the
First Circuit. Therefore, the “trade or business” test in
§ 130(b)(1) is satisfied as to both Sun Fund III and Sun
Fund IV.9
9

During the March 12, 2014 hearing, I speculated about the
possibility that the Sun Funds might receive an economic benefit
associated with the change in the timing of payments resulting
from management fee waivers and offsets. After analyzing the
timing issue, the parties have agreed that no such benefit accrued
to the Funds.
In addition, the Pension Fund, somewhat belatedly, has
raised the possibility that the potential for the “Special Profits Interest Giveback” described in Section 9.4(e) of the Funds’ LP
Agreements could constitute an economic benefit and satisfy the
First Circuit’s “investment plus” test. The Sun Funds have countered by asserting that, given Sun Fund IV’s financial performance, there no longer is a possibility that this provision will
come into play. In light of my disposition of the “trade or business”
question on another ground, and the lack of factual development

App. 65
II. WHETHER SUN FUND III AND SUN FUND
IV ARE UNDER “COMMON CONTROL”
WITH SCOTT BRASS, INC.
I next turn to the question whether the Sun Funds
were under “common control” with Scott Brass, Inc.
The Pension Benefit Guaranty Corporation has
adopted regulations pertaining to the meaning of “common control.” See 29 C.F.R. §§ 4001.2, 4001.3(a). The
PBGC’s regulations, in turn, employ the meaning of
“common control” adopted under Section 414(c) of the
Internal Revenue Code. 29 C.F.R. § 4001.3(a). Under
those regulations, two or more “trades or businesses”
are under common control if they are members of a
“parent-subsidiary” group of trades or businesses, a
“brother-sister” group of trades or businesses or a
“combined group” of trades or businesses. 26 C.F.R.
§ 1.414(c)-2.
A “parent-subsidiary group” – the relevant category here – means “means one or more chains of organizations conducting trades or businesses connected
through ownership of a controlling interest with a common parent organization if . . . controlling interest in
each of the organizations, except the common parent
organization, is owned . . . by one or more of the other
organizations; and [t]he common parent organization
owns . . . a controlling interest in at least one of the
other organizations. 26 C.F.R. § 1.414(c)-2(b). A “controlling interest” is defined to mean 80% ownership. Id.
related to the “Special Profits Interest Giveback” contention, I do
not explore the effect of Section 9.4(e) of the LP Agreements.

App. 66
The application of these rules to the first links in
the organizational chain is uncontested. When it withdrew from the Pension Fund, Scott Brass, Inc. ownership was fully held by Scott Brass Holding
Corporation. Scott Brass Holding Corporation, in turn,
was fully owned by Sun Scott Brass, LLC. There is no
argument that these entities would be considered to be
under common control with Scott Brass, Inc. It is also
uncontested that considered separately, Sun Fund IV’s
ownership stake in Sun Scott Brass, LLC is 70% and
Sun Fund III’s ownership stake is 30%. Both of these
stakes separately fall below the necessary 80% threshold necessary to establish a “controlling interest” for
purposes of MPPAA. Thus, in the absence of some
mechanism by which the ownership interests of Sun
Funds III and IV would be aggregated, withdrawal liability would not extend to the Plaintiff Funds themselves under these rules.
The Pension Fund’s contention is that (1) Sun
Funds III and IV formed a partnership or joint venture; (2) that the partnership or joint venture was engaged in a trade or business; and (3) that the
partnership or joint venture is the ultimate parent of
a parent-subsidiary group which includes Scott Brass,
Inc., the directly obligated entity.
A. Statutory Background
The “primary goal” of ERISA, and of the MPPAA
in particular, is “protecting employees’ benefits.” Pension Ben. Guar. Corp. v. Ouimet Corp., 711 F.2d 1085,

App. 67
1092 (1st Cir. 1983). To further this purpose, Congress
enacted section 1301(b), the common control provision,
“in order to prevent businesses from shirking their
ERISA obligations by fractionalizing operations into
many separate entities.” Bd. of Trustees of W. Conference of Teamsters Pension Trust Fund v. H.F. Johnson
Inc., 830 F.2d 1009, 1013 (9th Cir. 1987). See also Mason & Dixon Tank Lines, Inc. v. Cent. States, Se. & Sw.
Areas Pension Fund, 852 F.2d 156, 159 (6th Cir. 1988)
(“As the House and Senate Reports indicate, the primary purpose of the common control provision is to ensure that employers will not circumvent their ERISA
and MPPAA obligations by operating through separate
entities.”); UFCW Local One Pension Fund v. Enivel
Properties, LLC, 791 F.3d 369, 371 (2d Cir. 2015) (“To
ensure the viability of multiemployer pension plans
against the failure of a contributing employer, the
MPPAA has broad provisions that disregard the usual
legal barriers between affiliated, but legally distinct,
businesses.”). Liability is therefore not limited to the
business entity that itself withdrew from a multiemployer pension plan. Rather, it “in effect[ ] pierces the
corporate veil and disregards formal business structures.” Sun Capital, 724 F.3d at 138. Indeed, other
business organizations under common control can
share in withdrawal liability even if there is no “economic nexus” between the various organizations. Cent.
States, Se. & Sw. Areas Pension Fund v. Fulkerson, 238
F.3d 891, 895 n.1 (7th Cir. 2001). The requirement of
“common control,” as further defined in the regulations, both expresses disregard of organizational

App. 68
formalisms under the MPPAA and serves to limit the
reach of withdrawal liability.
The regulations, in contrast, impose a “brightline”
test for control based on ownership shares. Pension
Ben. Guar. Corp. v. E. Dayton Tool & Die Co., 14 F.3d
1122, 1126 (6th Cir. 1994). Necessarily, these regulations assert an attention to organizational forms: in determining whether a particular organization is 80
percent owned by another, some reference to individual
entities is required. It is not quite fully resolved
whether this brightline ownership-based test is always
determinative of common control, see id. (addressing
whether “actual control” is sometimes relevant instead), but the parties agree that it governs this dispute.
The use of a brightline ownership-based test is in
some tension with the purposive approach of the
MPPAA. The statute anticipates disregarding business
entity formalities and preventing responsible parties
from contracting around withdrawal liability. As the
First Circuit delicately stated, Congress “has not been
explicit” in allowing investors in distressed companies
to avoid ERISA withdrawal liability and “may prefer
instead to rely on the usual pricing mechanism in the
private market for assumption of risk.” Sun Capital,
724 F.3d at 148.
In contrast, the 80 percent ownership rule appears
to provide a roadmap for exactly how to contract
around withdrawal liability. In this case, for example,
the Funds forthrightly admit that an important

App. 69
purpose in dividing ownership of portfolio companies
between multiple funds is to keep ownership below 80
percent and avoid withdrawal liability. Sun Capital,
903 F. Supp.2d at 121. This tension is only heightened
when LLCs are employed. The regulations look to ownership to determine control, but in LLCs (as with the
LLCs used here) ownership can be divorced from effective managerial control. The statute requires that
these regulations be “consistent and coextensive” with
tax regulations, 29 U.S.C. § 1301(b), and arguably
these tensions stem irremediably from differences between the goals of the MPPAA and the formalisms of
the tax code. The difficulties of applying the current
scheme suggest that the relevant political actors
should consider whether their enactments can be better harmonized by statute and/or regulation.10

10

No doubt due to these tensions, some courts look to both
ownership and managerial control, if not as a matter of doctrinal
analysis then at least as an atmospheric factor. See, e.g., Plumbers & Steamfitters Local No. 150 Pension Fund v. Custom Mech.
CSRA, LLC, No. CV 107-142, 2009 WL 3294793, at *4 (S.D. Ga.
Oct. 13, 2009) (noting that firms were “both exclusively owned
and completely controlled” by same three entities and looking at
management structure in addition to ownership structure to determine “common control”); Cent. States, Se. & Sw. Areas Pension
Fund v. Skyland Leasing Co., 691 F. Supp. 6, 11-12 (W.D. Mich.
1987) aff ’d sub nom. Cent. States, Se. & Sw. Areas Pension Fund
v. Skyland Leasing, 892 F.2d 1043 (6th Cir. 1990) (“In determining employer status, mechanical interpretation and application of
the relevant provisions of the MPPAA must be avoided to ensure
that the statutes’ legislative purposes are achieved.”)

App. 70
B. The Relevance of the LLC
Both parties agree that Sun Fund III and Sun
Fund IV formed a jointly controlled business entity.
They disagree, however, about what form that jointly
controlled entity has taken. The Sun Funds contend
that this joint entity is fully and exclusively embodied
in the limited liability corporation formed for the very
purpose of investing in Scott Brass, Inc., that is, Sun
Scott Brass, LLC. The Pension Fund, on the other
hand, contends the record discloses the existence of a
joint venture or partnership formed by the Sun Funds
that is antecedent to the existence of Sun Scott Brass,
LLC and sits above it in the Scott Brass ownership
structure. If such a joint venture or partnership existed, it would have complete ownership of Sun Scott
Brass, LLC, be commonly controlled with Scott Brass,
Inc., and, if it is also a trade or business, pass withdrawal liability on to the Sun Funds as its partners.
The Sun Funds’ preliminary argument is that the
funds intentionally adopted the limited liability company form as the vehicle for their investment in Scott
Brass, Inc. and this court should respect those organizational formalities as such. I find this argument insufficient. The MPPAA is a statute that allows for, and
may in certain circumstances require, the disregard of
such formalities. The question of organizational liability is not answered simply by resort to organizational
forms, but must instead reflect the economic realities

App. 71
of the business entities created by the Sun Funds for
their acquisition of Scott Brass, Inc. 11
Moreover, the Funds’ withdrawal liability is a
matter of federal substantive law under ERISA and
the state law of business organizations is relevant only
for guidance and as incorporated into federal law. H.F.
Johnson Inc., 830 F.2d at 1014. Thus, in the closely-related area of tax law, where the same regulations and
definitions are at issue,12 courts have been clear that
the choice of organizational form under state law is not
determinative of treatment under federal law. Even
where an express agreement is determinative under
state law, “such an agreement is but one factor in determining whether a partnership exists for tax purposes.” Estate of Kahn v. Commissioner, 499 F.2d 1186,
1189 (2d Cir. 1974). The many cases cited by Plaintiffs
which suggest that certain organizational forms – whether
LLCs or corporations – are per se incompatible with
11

In a related theme, the Sun Funds argue that they cannot
be held to have created a joint venture to acquire Scott Brass because they specifically intended instead to form a limited liability
company, as demonstrated by the organizational documents of
Sun Scott Brass, LLC and the LP Agreements. The relevant intent, however, must be something more than an intent to realize
the benefits of a given organizational form. Put simply, an entity
is not shielded from MPPAA withdrawal liability because it intended to be shielded from withdrawal liability. Rather, the inquiry must be whether the Sun Funds intentionally engaged in
conduct which would support the existence of a partnership or
joint venture that owns the Scott Brass business.
12
Of course, interpretations of tax provisions are not always
applicable in the ERISA context, even for identical terms. Sun
Capital, 724 F.3d at 144-45.

App. 72
status as a partnership or joint venture all do so as a
matter of state law and are not dispositive of the question of MPPAA withdrawal liability under federal
law.13
Not only the general purpose of the MPPAA but
also the facts of this case support looking past the Sun
Funds’ choice to employ the LLC structure in assessing
their withdrawal liability. According to plaintiffs, Sun
Scott Brass, LLC was a “passive holding company” for
Scott Brass Holding Company. It had no employees
and did not own or lease offices or equipment. In contrast, the First Circuit found that the Sun Funds were
“intimately involved in the management and operation” of Scott Brass. Sun Capital, 724 F.3d at 142. The
LLC appears to be better understood as a vehicle for
the coordination of the two Sun Funds – and an attempt to limit liability – than as a truly independent
entity. It is another layer in a complex organizational
arrangement. Under the MPPAA framework, which
looks past the formal separation of entities, it is not
clear why there should be any difference if the Sun
Funds invest in Scott Brass, Inc. directly, invest
13

In my earlier opinion in this case, I discussed the applicability of state law “[i]n the absence of supervening federal authority.” Sun Capital, 903 F.Supp.2d at 119. That discussion
concerned the Funds liability as partners apart from statutory liability under the MPPAA, which had been addressed in a previous section. When applying state law, I held that the Sun Funds
were not responsible for the withdrawal liability of Sun Scott
Brass, LLC. Id. Contrary to plaintiff ’s suggestion, this was not a
“ ‘common control’ argument.” At the time, I wrote that “I do not
reach, nor do I decide, the issue of ‘common control’” under the
MPPAA. Id.

App. 73
through an intermediary holding company, or invest
through both an intermediary holding company and an
intermediary LLC. Cf. Sun Capital, 724 F.3d at 148
(“The various arrangements and entities meant precisely to shield the Sun Funds from liability may be
viewed as an attempt to divvy up operations to avoid
ERISA obligations.”).
A determination to aggregate ownership interests
across formally separate business entities is strengthened by a comparison to Sun Fund III. That Fund is
actually two formally entities – Sun Capital Partners
III, LP and Sun Capital Partners III QP, LP – which
operate as “parallel funds.” The two Sun Fund III parallel funds share a general partner and invest together
at a fixed proportion. However, they have different limited partners and filed separate partnership tax returns. Both the Court of Appeals and I have treated
these parallel funds as “one fund” given their close connection and general pattern of investing together in a
fixed proportion. Sun Capital, 724 F.3d at 134 n.3. The
plaintiff funds, without conceding that parallel funds
are under common control for MPPAA purposes, have
nevertheless proceeded to discuss their ownership interests in those two parallel funds as aggregated in
their arguments.
That ownership interests sometimes can be aggregated across parallel funds illustrates why, as a general proposition, they sometimes can be aggregated
across non-parallel funds. All the Sun Funds, whether
parallel or not, were formally independent entities
with separate owners but ultimately made their

App. 74
investment and business decisions under the direction
of Leder and Krouse. The most important difference
between parallel and non-parallel funds is whether coinvestments are made according to a fixed or variable
ratio: a distinction that is functional rather than formal and, when dealing with joint ventures or partnerships of limited scope, is highly fact-sensitive. This is
not to say that all parallel funds are partnerships,
much less that all non-parallel funds are. Rather, the
comparison of parallel and non-parallel funds reveals
that the distinction proves relatively little. Organizational formalities do not resolve the questions of joint
operation that tax law emphasizes in recognizing partnerships, whether those formalities delineate separate
parallel or non-parallel funds. Consequently, I turn to
the substance of the Sun Funds’ relationship with each
other and with Scott Brass to determine whether a
partnership exists under federal law.
C. Federal Partnership Law
Whether a partnership or joint venture exists in
this context between the Sun Funds is a matter of federal law. The Internal Revenue Code provides the relevant definition of a partnership:
The term “partnership” includes a syndicate,
group, pool, joint venture, or other unincorporated organization, through or by means of
which any business, financial operation, or
venture is carried on, and which is not, within
the meaning of this title, a trust or estate or a
corporation; and the term ‘partner’ includes a

App. 75
member in such a syndicate, group, pool, joint
venture, or organization.
26 U.S.C. § 7701(a)(2). The Supreme Court has interpreted this provision by providing a guide for how to
determine the existence of a partnership for tax (and
MPPAA) purposes.
A partnership is generally said to be created
when persons join together their money,
goods, labor, or skill for the purpose of carrying on a trade, profession, or business and
when there is community of interest in the
profits and losses. When the existence of an
alleged partnership arrangement is challenged by outsiders, the question arises
whether the partners really and truly intended to join together for the purpose of carrying on business and sharing in the profits or
losses or both. And their intention in this respect is a question of fact, to be determined
from testimony disclosed by their agreement,
considered as a whole, and by their conduct in
execution of its provisions.
Commissioner v. Tower, 327 U.S. 280, 286-97 (1946).
Subsequent cases have further elaborated the factors
to which courts should turn in determining the existence of a partnership. In Commissioner v. Culbertson,
the Supreme Court identified whether “the parties in
good faith and acting with a business purpose intended
to join together in the present conduct of the enterprise” as the ultimate inquiry and required factfinders
to look at “the agreement, the conduct of the parties in
execution of its provisions, their statements, the

App. 76
testimony of disinterested persons, the relationship of
the parties, their respective abilities and capital contributions, the actual control of income and the purposes for which it is used, and any other facts throwing
light on their true intent” in determining that intent.
Commissioner v. Culbertson, 337 U.S. 733, 742 (1949).
The Tax Court has pointed to a long list of factors
as relevant in determining whether a partnership exists:
The agreement of the parties and their conduct in executing its terms; the contributions,
if any, which each party has made to the
venture; the parties’ control over income and
capital and the right of each to make withdrawals; whether each party was a principal
and coproprietor, sharing a mutual proprietary interest in the net profits and having an
obligation to share losses, or whether one
party was the agent or employee of the other,
receiving for his services contingent compensation in the form of a percentage of income;
whether business was conducted in the joint
names of the parties; whether the parties filed
Federal partnership returns or otherwise represented to respondent or to persons with
whom they dealt that they were joint venturers; whether separate books of account were
maintained for the venture; and whether the
parties exercised mutual control over and assumed mutual responsibilities for the enterprise.
Luna v. Commissioner, 42 T.C. 1067, 1077-78 (1964).

App. 77
A joint venture is similar to a partnership, but is
“generally established for a single business venture . . .
while a partnership is formed to carry on a business
for profit over a long period of time.” Podell v. Commissioner, 55 T.C. 429, 432 (1970). The Luna factors, and
the ultimate inquiry into the parties’ intent, is the
same for joint ventures as for partnerships. Luna, 42
T.C. at 1077. Whether the Sun Funds formed what
might be characterized as a joint venture with respect
to Sun Brass or a partnership in which Sun Brass is
one of several joint investments by the Funds is not
material. I will continue my analysis through the partnership lens for discussion purposes.
D. Application of Partnership Factors
Applying the above-mentioned factors, it is clear
that no partnership-in-fact exists between the Sun
Funds that covers all their activities and investments.
The Sun Funds are closely affiliated entities and part
of the larger ecosystem of Sun Capital entities created
and directed by Marc Leder and Rodger Krouse. Sun
Capital, 724 F.3d at 133. Leder and Krouse, acting as
the limited partner committees of the general partners
of each Fund, retain substantial control over both
Funds. Id. at 134-35. The Funds have identical language in their partnership agreements and are operated similarly. Sun Capital, 903 F.Supp.2d at 110.
Of course, individuals may create multiple businesses, using the same strategy, without necessarily
putting all their enterprises into partnership with

App. 78
each other. And looking superficially, there is nothing
that evidences an intent that Sun Fund III and IV be
joined together as a general rule. The Funds filed partnership tax returns and filed them separately. Sun
Fund III and Sun Fund IV have separate financial
statements, separate reports to their partners, separate bank accounts, largely non-overlapping sets of
limited partners, and largely non-overlapping portfolios of companies in which they have invested. When
they co-invested, as in Sun Scott Brass, LLC, their
agreements disclaimed any intent to form a partnership or joint venture. The conventional theories of a
general partnership – those that on the face reflect operational and institutional overlap between the Funds
– are not evident here.
A more limited partnership or joint venture, however, is nevertheless to be found, based on the present
record. The Sun Funds are not passive investors in Sun
Scott Brass, LLC, brought together by happenstance,
or coincidence. Rather, the Funds created Sun Scott
Brass, LLC in order to invest in Scott Brass, Inc. Between 2005 and 2008, Sun Funds III and Sun Funds
IV also coinvested in five other companies, using the
same organizational structure. In each case, they expressly disclaimed any intent to form a partnership or
joint venture, a fact that remains relevant – but not
dispositive – as to whether a partnership-in – fact was
created. More importantly, prior to entity formation
and purchase, joint activity took place in order for the
two Funds to decide to coinvest, and that activity was
plainly intended to constitute a partnership-in-fact.

App. 79
In its opinion in this case, the First Circuit observed that “It is the purpose of the Sun Funds to seek
out potential portfolio companies that are in need of
extensive intervention with respect to their management and operations,” and that in this connection “[i]n
2006, the Sun Funds began to take steps to invest in
SBI.” Sun Capital, 724 F.3d at 142. I do not suggest
that the court’s description of the Sun Fund III and
Sun Fund IV acting in concert as the “Sun Funds” in
itself represents a prior judicial finding that a partnership existed. But the court’s opinion shows how difficult it can be to speak sensibly of the business model
of Sun Fund III and Sun Fund IV without describing
them as acting together or in concert with respect to
specific investments. The period of joint action evident
in the First Circuit’s observation covers at least the period before the Funds completed the acquisition of a
portfolio company through an LLC and holding company and would appear to extend through the operation of those LLCs and portfolio companies.
Notably, the Funds made a conscious decision to
split their ownership stake 70/30 for reasons that
demonstrate the existence of a partnership. The Funds
assert three motivations for this split: that Sun Fund
III was nearing the end of its investment cycle while
Sun Fund IV was earlier in its own cycle, a preference
for income diversification, and a desire to keep each
Fund below 80 percent ownership to avoid withdrawal
liability. With the exception of income diversification,
which two truly independent entities could also pursue
in parallel but on their own, these goals are instinct

App. 80
with coordination and show joint action. The record
shows that the 70/30 split does not stem from two independent funds choosing, each for its own reasons, to
invest at a certain level. Rather, these goals stem from
top-down decisions to allocate responsibilities jointly.
Entities set up with rolling and overlapping lifecycles
and coordination during periods of transition offer advantages to the Sun Funds group as a whole, not just
to each Fund. And the choice to organize Sun Scott
Brass, LLC, so as to permit each of the Sun Funds coinvesting to remain under 80 percent ownership, is likewise a choice that shows an identity of interest and
unity of decisionmaking between the Funds rather
than independence and mere incidental contractual coordination. A separate entity which is perhaps best described as a partnership-in-fact chose to establish this
ownership structure and did so to benefit the plaintiff
Sun Funds jointly.
The two Funds were organizationally separate –
and this remains important under Culbertson and
Luna – but the record shows no meaningful evidence
of actual independence in their relevant co-investments. The Funds have not indicated, for example, that
they sometimes co-invested with each other but sometimes co-invested with other outside entities. Neither
has evidence been adduced of disagreement between
Sun Fund III and Sun Fund IV over how to operate the
LLC, as might be expected from independent members
actively managing and restructuring an industrial
concern. The smooth coordination is indicative of a

App. 81
partnership-in-fact sitting atop the LLC: a site of joining together and forming a community of interest.
Given the record before me, no reasonable trier of
fact could find that the Sun Funds’ joint operation of
Scott Brass was carried out solely through their LLC
or that their relationship was defined entirely by the
agreements governing the LLC. The record is not clear
on the precise scope of their partnership or joint venture – which portfolio companies were covered, the
date on which the relevant partnership or joint venture was formed, and so forth – but it is clear beyond
peradventure that a partnership-in-fact existed sufficient to aggregate the Funds’ interests and place them
under common control with Scott Brass, Inc.
The only other court to address “common control”
in a similar organizational structure found the structure to be compatible with a partnership for MPPAA
purposes. Bd. of Trs., Sheet Metal Workers’ Nat’l Pension Fund v. Palladium Equity Partners, LLC, 722
F. Supp. 2d 854 (E.D. Mich. 2010). To be sure, the Palladium court believed it required additional factfinding before it could reach a determination on the
partnership issue, and the case settled before that factfinding could be completed, but a comparison to that
case is instructive in understanding the legal framework to be employed.
In Palladium, a plaintiff pension fund sued three
private equity funds over withdrawal liability under
the MPPAA. The private equity funds, with disclaimers of any intent to form a partnership, had invested in

App. 82
a group of industrial painting companies that had gone
bankrupt and withdrawn from a multi-employer pension plan. Id. at 857. Together these three Palladium
funds owned well over 80 percent of the bankrupt
companies – enough for common control – but none
individually owned more than 57 percent. Id. at 859.
The court held that it could not determine whether
the three funds were a joint venture or partnership
as a matter of law and denied cross-motions for summary judgment. Id. at 867, 875.
There are many similarities between the Palladium funds and the Sun Funds, although the Palladium structure is at all points somewhat less complex.
And put simply, the Palladium Funds observed most of
the same organizational formalisms as the Sun Funds.
But this was not enough to keep them from being a
partnership under the statute. The Palladium court
was clear that as a matter of law, partnership-in-fact
and common control can be found even across formally
fully independent entities.14

14

The Sun Funds contend that the Palladium facts presented stronger evidence for partnership than exists here and
identify two important distinctions between this case and that
one. I find neither distinction sufficient for the plaintiffs here to
overcome summary judgment.
First, unlike the Sun Funds, the Palladium funds invested
directly in the portfolio companies through the purchase of stock.
They did not form an LLC in which they were members. I do not
find this distinction of any great importance in the context of the
MPPAA: it is the substance of the Funds’ activities, not the number of entities they placed between themselves and the actual

App. 83
In this case, the record clearly shows the Sun
Funds, despite the lack of a permanently fixed co-investment ratio, joining together as a partnership to invest in and manage certain of their shared portfolio
companies, in particular Scott Brass, Inc. I conclude
the plaintiffs are under common control with Scott
Brass, Inc.
E. Is the Partnership a Trade or Business?
Even where a partnership is recognized, it is not
responsible for withdrawal liability unless it is a “trade
or business.” Sun Capital, 724 F.3d at 138. Whether an
employees covered by unfunded pensions, that determines
whether a partnership existed.
Second, the Palladium Funds were operated as “parallel
funds.” The limited partnership agreement of their shared General Partner stated that the funds were to invest proportionately
in their investments. The Palladium Funds in essence provided
the same investments to different investors. In contrast, Sun
Fund III and Sun Fund IV were not parallel funds. Of the 43 LLCs
in which Sun Fund III held an interest and the 52 LLCs in which
Sun Fund IV did, only seven overlapped. There is no indication
that those seven investments were made in fixed proportion.
Clearly, Sun Fund III and Sun Fund IV operated more independently than parallel funds, including the funds in Palladium,
and had they been operated as parallel funds, it would surely
have further strengthened any finding of partnership.
But whether funds are parallel or not does not necessarily
determine whether they are a partnership, though it might frequently prove relevant. While acting in parallel could be one way
for private equity funds to form a partnership, it is not the only
way. This is particularly true for partnerships or joint ventures
with limited purposes; two funds which were operated separately
could operate jointly for a period of time or with regard to a particular set of investments.

App. 84
entity is a trade or business is a “very fact-specific” inquiry without any single dispositive factor. Id. at 141.
Given the substantial overlap between the features of
the Sun Funds which the First Circuit found to make
them trades or businesses and the activities of what I
find to be the partnership-in-fact between them, I find
their partnership-in-fact to be a trade or business as a
matter of law as well.
The Pension Fund points to the acts of the two Sun
Funds as constituting the nature of the partnership, in
the manner of DNA. But it is well-settled that whether
a partnership is a “trade or business” must be resolved
at the partnership level, not by looking at the partners.
See Brannen v. Commissioner, 722 F.2d 695, 703 (11th
Cir. 1984) (citing Madison Gas & Electric Co. v. Commissioner, 72 T.C. 521 (1974), aff ’d, 633 F.2d 512 (7th
Cir. 1980) and Goodwin v. Commissioner, 75 T.C. 424
(1980), aff ’d without published opinion, 691 F.2d 490
(3d Cir. 1982)). Determining whether the partnership
is a trade or business requires distinguishing between
acts taken by the partnership and those taken by the
partners acting alone.
For their part, the Sun Funds argue that the partnership could not be a trade or business because it
would merely be a passive investor, the only purpose of
which was to hold the Funds’ investment in an LLC.
They claim that because the Sun Funds were found to
have been actively managing their portfolio companies
– because they were trades or businesses – there was
no active work left for the partnership to do. This argument, too, misunderstands the nature of the

App. 85
partnership. A partnership exists because the Sun
Funds carried on their individual trades and businesses together, as a factual matter. I did not recognize
the existence of a partnership between the Sun Funds
because, as the plaintiffs suggest, the Funds created a
partnership “solely to enable the TPF to hold the Sun
Funds liable and nothing more than that.” In the absence of an express partnership agreement, it is the
conduct of the Funds that gives rise to a partnership,
and it is that conduct which shows the purposes of the
partnership itself. A partnership is not the sum of all
its partners’ actions, as the Pension Fund would have
it, but it is also not an empty box excluding all the acts
of its partners, as the Sun Funds suggest. Whether a
partnership is a trade or business is a finer-grained
and more fact-specific inquiry than either party suggests.
It is clear from the undisputed facts that the plaintiffs’ partnership-in-fact here is a trade or business under the First Circuit’s analysis. Like the Sun Funds,
the partnership’s purpose is to make a profit, an important factor in determining “trade or business” status, although an insufficient one. Sun Capital, 724 F.3d
at 141-42. Additionally, the partnership was involved
in the active management of the portfolio companies
that the First Circuit found critical. For example, the
First Circuit found it important that the Sun Funds’
purpose is “to seek out potential portfolio companies
that are in need of extensive intervention” and that
“restructuring and operating plans are developed for a
target portfolio company even before it is acquired.” Id.

App. 86
at 142. This period of joint investigation and action
prior to the formation of an LLC is central to the work
of the partnership itself – it is an important piece of
why I find a partnership-in-fact to exist – and so is
highly indicative of that partnership being a trade or
business. Likewise, the First Circuit noted that “the
Sun Funds were able to place employees of Sun Capital
Advisors, Inc. in two of the three director positions at
Scott Brass, Inc., resulting in Sun Capital Advisors employees controlling the SBI board.” Id. at 143. This indicates a joint effort to control Scott Brass, Inc.,
through Sun Capital Advisors, rather than independent efforts to exert control through, for example, one
seat on the board for each Fund.
It is of course true, as the plaintiffs insist, that the
partnership received no “direct economic benefit” on
top of the benefits received by the Sun Funds. Since the
partnership was not a formally constituted entity, it
could not have done so. But this proves too much. It
would suggest that no partnership recognized from actions rather than express agreements could be a trade
or business, a conclusion at odds with the substantial
body of law finding precisely such partnerships to be
trades and businesses. See, e.g., Connors v. Ryan’s Coal
Co., 923 F.2d 1461, 1467 (11th Cir. 1991). The “direct
economic benefit” factor addresses not whether the
partnership itself retained the benefits of its activities,
as opposed to passing them along to its partners, but
rather whether its activities were intended to generate
compensation that “an ordinary, passive investor
would not derive.” Sun Capital, 724 F.3d at 143. The

App. 87
partnership’s active management in pursuit of profits
from restructuring was not mere passive investment
but something more. For precisely the same reasons as
the Sun Funds are trades or businesses, the partnership or joint venture formed between them is so as
well.
Because the plaintiffs’ partnership-in-fact is a
trade or business and is in common control with Scott
Brass, Inc., it is responsible for the withdrawal liability. As a result, the plaintiff Sun Funds are jointly and
severally responsible for that liability as well.
III.

CONCLUSION

For the reasons set forth more fully above, Plaintiffs’ Renewed Motion for Summary Judgment, Dkt.
No. 130, is DENIED, Defendant’s Motion for Summary
Judgment, Dkt. No. 82, is RECONSIDERED and now
GRANTED, and the Clerk is directed to enter judgment for the Defendants.
/s/ Douglas P. Woodlock
DOUGLAS P. WOODLOCK
UNITED STATES DISTRICT JUDGE
[Appendix Omitted]

App. 88
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
)
)
)
)
)
Plaintiffs/
) CIVIL ACTION NO.
Counter-Defendants,
) 10-10921-DPW
v.
)
)
NEW ENGLAND TEAM)
STERS AND TRUCKING
INDUSTRY PENSION FUND, )
)
Defendant/
)
Counter-Plaintiff,
)
)
v.
)
SCOTT BRASS HOLDING
)
CORP., and SUN SCOTT
)
BRASS, LLC,
)
Third-Party Defendants. )
SUN CAPITAL PARTNERS
III, LP, SUN CAPITAL PARTNERS III QP, LP, and SUN
CAPITAL PARTNERS IV, LP,

FINAL JUDGMENT
March 28, 2016
In accordance with the Memorandum and Order
issued this day under direction of the remand from the
United States Court of Appeals for the First Circuit,
Sun Capital Partners III, L.P., et al v. New England
Teamsters & Trucking Industry Pension Fund, 724 F.3d
129 (1st Cir. 2013), see also id. at 132 n.1 (noting that
while default judgment had entered against the third-

App. 89
party defendants, defendant/counter plaintiff had
abandoned its claims against those parties), judgment
is granted to the Defendant/Counter-Plaintiff and it is
HEREBY
DECLARED, ADJUDGED and DECREED:
That the plaintiffs Sun Capital Partners III, LP,
Sun Capital Partners III QP, LP and Sun Capital Partners IV, LP are jointly and severally liable for the pro
rata share of unfunded vested benefits owed to the defendant multiemployer pension fund by Sun Brass,
Inc.
/s/ Douglas P. Woodlock
DOUGLAS P. WOODLOCK
UNITED STATES DISTRICT JUDGE

App. 90
United States Court of Appeals
For the First Circuit
-----------------------------------------------------------------------

Nos. 16-1376
19-1002
SUN CAPITAL PARTNERS III, LP; SUN
CAPITAL PARTNERS III QP, LP; SUN
CAPITAL PARTNERS IV, LP,
Plaintiffs, Appellants,
v.
NEW ENGLAND TEAMSTERS & TRUCKING
INDUSTRY PENSION FUND,
Defendant, Third Party Plaintiff, Appellee,
SCOTT BRASS HOLDING CORP.;
SUN SCOTT BRASS, LLC,
Third Party Defendants.
-----------------------------------------------------------------------

APPEALS FROM THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF MASSACHUSETTS,
[Hon. Douglas P. Woodlock, U.S. District Judge].
-----------------------------------------------------------------------

Howard, Chief Judge,
Torruela, Stahl, Lynch
Lipez, Thompson
Kayatta and Barron
Circuit Judges.
-----------------------------------------------------------------------

App. 91
ORDER OF COURT
Entered: March 13, 2020
The petition for rehearing having been denied by
the panel of judges who decided the case, and the petition for rehearing en banc having been submitted to
the active judges of this court and a majority of the
judges not having voted that the case be heard en banc,
it is ordered that the petition for rehearing and the petition for rehearing en banc be denied.
By the Court:
Maria R. Hamilton, Clerk
cc:
Theodore Joel Folkman
Jeffrey S. Quinn
John F. Hartmann
John C. O’Quinn
Catherine M. Campbell
Renee J. Bushey
Melissa Ann Brennan
Craig T. Fessenden

App. 92
Office of Chief Counsel
Internal Revenue Service
memorandum
Number: 201323015
Release Date: 6/7/2013
CC:PSI:B03:

Third Party Communication: None

POSTF-139044-12 Date of Communication:
Not Applicable
UILC:

199.00-00, 761.01-00, 7701.02-02

date:

February 21, 2013

to:

Associate Area Counsel (
, Group 2)
(Large Business & International)

from:

James A. Quinn
Senior Counsel, Branch 3
(Passthroughs & Special Industries)

subject: Whether Collaboration is a Partnership and
Section 199 Consequences
This Chief Counsel Advice responds to your request for
assistance. This advice may not be used or cited as
precedent.
LEGEND
A

=

B

=

C

=

State

=

Date 1

=

App. 93
Date 2

=

Year 1

=

Year 2

=

Year 3

=

Product

=

a

=

b

=

ISSUES
1. Is the collaboration between A and B a partnership
for federal tax purposes?
2. If the collaboration is a partnership, is it eligible to
elect to be excluded from the application of subchapter
K under § 761(a) of the Internal Revenue Code (Code)
and § 1.761-2 of the Income Tax Regulations?
3. If the collaboration is a partnership and the partnership produces Product in whole or in significant
part within the United States within the meaning of
§ 199(c)(4)(A)(i)(I), how does A claim the domestic production activities deduction under § 199 with respect
to the gross receipts derived by the partnership from
the sale of Product?

App. 94
CONCLUSIONS
1. The collaboration is a partnership for federal tax
purposes.
2. The collaboration is not eligible to elect to be excluded from the application of subchapter K under
§ 761(a) and § 1.761-2.
3. As a partner in C, A claims the § 199 deduction at
the partner level under § 199(d)(1)(A) by including its
allocable share of each item described in § 199(c)(1)(A)
and (B) for its separate § 199 calculation. Section
1.199-5(b)(1) provides C should allocate A its allocable
share, in accordance with §§ 702 and 704, of C’s items
(including items of income, gain, loss, and deduction),
cost of goods sold allocated to such items of income, and
gross receipts that are included in such items of income. Furthermore, under § 199(d)(1)(A)(iii) and
§ 1.199-5(b)(3), A’s share of amounts described in
§ 1.199-2(e)(1) (Paragraph (e)(1) wages) of C for purposes of determining A’s W-2 wage limitation under
§ 199(b)(1) equals A’s allocable share of those wages.
FACTS
A, a State corporation, and B, a State corporation, entered into a written Collaboration Agreement (“Agreement”) dated Date 1 (such arrangement between the
two entities referred to herein as C), relating to the development and commercialization of Product.

App. 95
In the Agreement, A granted to B rights to co-promote
Product in the United States and Canada and to develop and market it in the rest of the world.1
A was responsible for the
and was
solely responsible for the
Until A received
in Date 2, A bore all of the
costs for development and obtaining
Prior to
the Agreement, A not only developed the
but also working

that are critical to the

production of Product. A was responsible for the
Soon after signing the Agreement, A transferred to
B
and transferred

to B and provided

B, at its own expense, worked on
The parties charged all development costs incurred for development or marketing in the United
States or Canada against the operating profits of the
collaboration.
According to the Agreement, A and B each agree to collaborate diligently in the development of Product and
to use commercially reasonable and diligent efforts to
develop and bring Product to market in
Each party
1

the

The Agreement provides for the parties’ arrangement in
This CCA only addresses the arrangement in

App. 96
also agrees to collaborate in the commercialization of
Product in the
in a manner to maximize operating profits, with B
playing the primary role.
The Agreement establishes
committees that are in
charge of the management and finances of the collaboration, as well as the development and commercialization of Product. Each committee is comprised of
representatives appointed in equal numbers by A and
B.
In the United States and Canada, the parties share in
the collaboration’s profits and losses.
A and B will
share in the first $a in operating profits,
% and
%, respectively, then
% and
%, respectively,
of operating profits in excess of $a. To the extent there
is an operating loss, such loss is absorbed
% by
A and
% by B.
Under the Agreement, A and B maintain complete and
accurate records that are relevant to costs, expenses,
sales, and payments. Both parties incur expenses, including
Each
, A submits its records to B so B can
calculate the collaboration’s profits and losses. B subsequently determines if any true ups are necessary,
and then typically pays A for its allocable share of profits and losses.
There are accruals and reserves that A and B jointly
share.

App. 97
This accrued expense was deducted for financial
accounting purposes in arriving at the collaboration’s
profit in Year 3 and A’s share of the profit was reduced
by
% of this expense.
A and B sell Product in
under trademarks selected by the
and owned jointly by A and B. All
inventions made under the Agreement jointly by employees of A and B will be owned jointly by A and B. All
documentary information, promotional materials, and
oral presentations regarding the promotion of Product
displayed the names and logos of A and B. Apart from
these instances, the Agreement does not grant the
right to use in any manner the name A, B or any other
trade name or trademark of the other party, or of its
affiliates in connection with the performance of the
Agreement.
A and B did not file a Form 1065, U.S. Return of Partnership Income, for C for any taxable year or file a written election under § 761(a) of the Internal Revenue
Code meeting the requirements in the regulations to
elect out of subchapter K. Although the Agreement
does not indicate A and B’s intent on whether C should
be treated as a partnership for federal tax purposes,
side agreements included provisions that stated
their intent that their relationship is not to be treated
as a partnership, agency, employer-employee, or joint
venture.
Although A initially treated amounts from B as royalty
payments, A is now claiming the amounts from B
should be included in A’s calculation of qualified

App. 98
production activities income under § 199(c)(1). A has
not received information from C that would allow A to
calculate the § 199 deduction separately.
LAW AND ANALYSIS
ISSUE 1:
Section 7701(a)(2) provides that the term “partnership” includes a syndicate, group, pool, joint venture, or
other unincorporated organization, through or by
means of which any business, financial operation, or
venture is carried on, and which is not, within the
meaning of title 26, a trust or estate or a corporation;
and the term “partner” includes a member in such a
syndicate, group, pool, joint venture, or organization.
Section 301.7701-1(a)(2) of the Procedure and Administration Regulations provides that a joint venture or
other contractual arrangement may create a separate
entity for federal tax purposes if the participants carry
on a trade, business, financial operation, or venture
and divide the profits therefrom. Section 301.77011(a)(2) also provides that a joint undertaking merely to
share expenses does not create a separate entity for
federal tax purposes. For example, if two more persons
jointly construct a ditch merely to drain surface water
from their properties, they have not created a separate
entity for federal tax purposes.
Section 301.7701-1(b) provides that the classification
of organizations that are recognized as separate entities is determined under §§ 301.7701-2, 301.7701-3,

App. 99
and 301.7701-4 unless a provision of the Code provides
otherwise.
Section 301.7701-2(c) provides that the term “partnership” means a business entity that is not a corporation
under § 301.7701-3(b) and that has at least two members.
The Supreme Court in Commissioner v. Culbertson,
337 U.S. 733, 69 S.Ct. 1210, 93 L.Ed. 1659 (1949), provided the foundation for determining when a partnership exists for federal tax purposes. The Supreme
Court stated that a partnership exists for federal tax
purposes under the following circumstances:
“considering all the facts- the agreement, the conduct of the parties in execution of its provisions,
their statements, the testimony of disinterested
persons, the relationship of the parties, their respective abilities and capital contributions, the actual control of income and the purposes for which
it is used, and any other facts throwing light on
their true intent- the parties in good faith and acting with a business purpose intend to join together
in the present conduct of an enterprise.”
The principles of Culbertson equally apply where the
kind of partnership is an alleged joint venture. Luna v.
Commissioner, 42 T.C. 1067, 1077, 1964 WL 1259
(1964). In Luna, the Tax Court provided the following
list of factors, none of which is conclusive, which bear
on the issue of whether a joint venture exists:
“[1] The agreement of the parties and their conduct in executing its terms; [2] the contributions,

App. 100
if any, which each party has made to the venture;
[3] the parties’ control over income and capital and
the right of each to make withdrawals; [4] whether
each party was a principal and coproprietor, sharing a mutual proprietary interest in the net profits
and having an obligation to share losses, or
whether one party was the agent or employee of
the other, receiving for his services contingent
compensation in the form of a percentage of income; [5] whether business was conducted in the
joint names of the parties; [6] whether the parties
filed Federal partnership returns or otherwise represented to the [IRS] or to persons with whom they
dealt that they were joint venturers; [7] whether
separate books of account were maintained for the
venture; and [8] whether the parties exercised mutual control over and assumed mutual responsibilities for the enterprise.”
The regulations under §§ 301.7701-1 and 301.7701-2
require that in order for a joint venture to be considered a partnership, it must not be a corporation, must
have at least two members, and cannot be a joint undertaking merely to share expenses. In this case, C is
not a corporation described in § 301.7701-2(b). Additionally, if C were considered a partnership for federal
tax purposes, it would be comprised of two members, A
and B. Finally, A and B did not join together to merely
share expenses, but used each other’s unique knowhow to make a profit from selling Product. Thus, C is
eligible to be classified as a partnership for federal tax
purposes.

App. 101
However, A and B did not file a Form 1065 for the collaboration for any taxable year or file a written
§ 761(a) election meeting the requirements in the regulations to elect out of subchapter K; thus they did not
formally indicate to the IRS that the collaboration is a
partnership for federal tax purposes. Although the
Agreement does not indicate A and B’s intent on
whether their collaboration should be treated as a
partnership for federal tax purposes,
side agreements included provisions that stated their intent that
their relationship is not to be treated as a partnership,
agency, employer-employee, or joint venture. Even if A
and B intended not to be treated as a partnership, it
will nevertheless be held to exist if the agreements and
conduct of the parties plainly show the existence of
such a relationship. Haley v. Commissioner, 203 F.2d
815 (5th Cir. 1953). As a result, we must analyze
whether a partnership exists under the principles set
forth in Culbertson and Luna. The Supreme Court in
Culbertson held that the determination of whether two
or more parties create a partnership looks at whether
they in good faith and acting with a business purpose
intended to join together in the present conduct of a
business. The Tax Court in Luna elaborated on the
Culbertson standard by identifying eight factors that
aid in the determination of whether a partnership exists for federal tax purposes.
Five of the eight Luna factors support the conclusion
that the joint venture is a partnership. First, A and B
entered into the Agreement and have not deviated
from its terms during the taxable years at issue.

App. 102
Second, both parties contributed cash and services to
the venture. A
and
while B
helped with the development, marketing, and sale of
the
Third, A and B are sharing in the profits and
losses of their operation. Although there is a royalty
payment B pays A on sales of Product outside of the
the Agreement provides profit and loss ratios for
sales inside of the two countries. Fourth, both parties
maintain records of their respective revenue and expenses. B combines A’s amounts with its own to calculate the collaboration’s profits and losses each quarter.
Lastly, both parties exercised mutual control and assumed mutual responsibilities for the enterprise. Both
parties had equal representation on the
Committee,
which determined how to manage
the venture, and how to develop and commercialize
Product.
The sixth Luna factor weighs against the conclusion
that the collaboration is a partnership. C never filed
any partnership returns. In addition, A has reported
B’s payments to it as royalty income, which is not representative of the parties treating their venture as a
partnership.
Two of the Luna factors are neutral. Evidence regarding the third Luna factor is mixed because both parties
had control of the income and the capital through the
If either party had an issue with the accounting, it
could bring the issue to the
Because the
consists of an equal number of representatives from A and
B, it would presumably make an unbiased conclusion.

App. 103
However, neither party had the right to make withdrawals because the parties did not share a bank account. Also, the Agreement was silent on whether A or
B could make withdrawals.
The fifth Luna factor is also not conclusive. Documentary information, promotional materials, and oral
presentations regarding the promotion of Product displayed the names and logos of A and B. The Agreement,
however, provides that neither party has the right to
use the name of the other in connection with performance of the Agreement. Further, there is no evidence
A and B use the name, C, in their dealings with third
parties. The
Agreement uses C for identification
purposes only and is not a legal entity.
In weighing the Luna factors, we do not treat any one
factor as determinative, but we consider and weigh
each factor in the overall determination of whether a
joint venture exists. In the present case, our consideration of the Luna factors indicates that C is a joint venture. Considering the facts and circumstances of this
case, we further conclude that the overall standard set
forth in Culbertson is satisfied. The facts demonstrate
that A and B, acting with a business purpose, intended
to and did join together in the conduct of a business
enterprise. A and B clearly evince this intent through
the sharing in the net profits and losses from the manufacture, development, and marketing of Product. Accordingly, C is a partnership for federal tax purposes.

App. 104
ISSUE 2:
Section 761(a) provides that under regulations the Secretary may, at the election of all the members of the
unincorporated organization, exclude such organization from the application of all or part of subchapter K,
if it is availed of for the joint production, extraction, or
use of property, but not for the purposes of selling services or property produced or extracted, if the income
of the members of the organization may be adequately
determined without the computation of partnership
taxable income.
Section 1.761-2(a)(1) provides that an unincorporated
organization described in §§ 1.761-2(a)(2) or (3) may be
excluded from the application of all or a part of the provisions of subchapter K. Such organization must be
availed of (i) for investment purposes only and not for
the active conduct of a business, or (ii) for the joint production, extraction, or use of property, but not for the
purpose of selling services or property produced or extracted. The members of such organization must be
able to compute their income without the necessity of
computing partnership taxable income. Any syndicate,
group, pool, or joint venture which is classifiable as an
association, or any group operating under an agreement which creates an organization classifiable as an
association, does not fall within these provisions.
Section 1.761-2(a)(2) provides that where the participants in the joint purchase, retention, sale, or exchange of investment property—(i) Own the property
as coowners, (ii) Reserve the right separately to take or

App. 105
dispose of their shares of any property acquired or retained, and (iii) Do not actively conduct business or irrevocably authorize some person or persons acting in a
representative capacity to purchase, sell, or exchange
such investment property, although each participant
may delegate authority to purchase, sell, or exchange
his share of any such investment property for the time
being for his account, but not for a period of more than
a year, then such group may be excluded from the application of the provisions of subchapter K under the
rules set forth in § 1.761-2(b).
Section 1.761-2(a)(3) provides that where the participants in the joint production, extraction, or use of property—(i) Own the property as co-owners, either in fee
or under lease or other form of contract granting exclusive operating rights, (ii) Reserve the right separately
to take in kind or dispose of their shares of any property produced, extracted, or used, and (iii) Do not
jointly sell services or the property produced or extracted, although each participant may delegate authority to sell his share of the property produced or
extracted for the time being for his account, but not for
a period of time in excess of the minimum needs of the
industry, and in no event for more than one year, then
such group may be excluded from the application of the
provisions of subchapter K of the Code.
Section 1.761-2(b)(2)(ii) provides that if an unincorporated organization described in §§ 1.761-2(a)(1) and either (a)(2) or (a)(3) does not make the election provided
in § 761(a) in the manner prescribed by § 1.7612(b)(2)(i), it shall nevertheless be deemed to have made

App. 106
the election if it can be shown from all the surrounding
facts and circumstances that it was the intention of the
members of such organization at the time of its formation to secure exclusion from all of subchapter K beginning with the first taxable year of the organization.
C is not the type of unincorporated organization described in § 1.761-2(a)(1) because it fails to meet the
requirements of §§ 1.761-2(a)(2) and 1.761-2(a)(3). Under § 1.761-2(a)(2), electing out of subchapter K as an
investment partnership requires the joint purchase,
retention, sale or exchange of investment property. Although the regulation does not define “investment property,” Product is not the type of property that would
meet this requirement. See e.g., §§ 148(b)(2) (definition
of “investment property” for purposes of § 148) and
1.148-1(e) (definition of “investment-type property”).
Additionally, C is not an investing partnership because
it actively conducts the business of producing and selling Product. C fails the requirements set forth in
§ 1.761-2(a)(3)2 because A and B jointly sell Product.
Even if A and B did not sell Product jointly, A allowed
B to sell Product
Thus, because it does not
meet the requirements of §§ 1.761-2(a)(2) or 1.7612(a)(3), C is not eligible to elect out of subchapter K
under § 1.761-2(b)(1) or be deemed to have elected out
of subchapter K under § 1.761-2(b)(2)(ii).

2

Historically, this rule only applied to oil and gas or mineral
extraction activities; but it is available to other types of production ventures as well. See Rev. Rul. 68-344, 1968-1 C.B. 569 (participants co-owned power generating facilities).

App. 107
ISSUE 3:
Under § 199(a), the domestic production activities deduction is determined by applying a percentage to the
lesser of the taxpayer’s qualified production activities
income (QPAI) or taxable income (determined without
regard to the § 199 deduction). The applicable percentage is 3 percent for taxable years beginning in 2005
and 2006, 6 percent for taxable years beginning in
2007 through 2009, and 9 percent for taxable years beginning after 2009.
Section 199(b)(1) limits the deduction for a taxable
year to 50 percent of the W-2 wages paid by the taxpayer during the calendar year that ends in such taxable year. Section 199(b)(2)(B) provides that W-2 wages
does not include any amount which is not properly allocable to domestic production gross receipts (DPGR).
Under § 199(c)(1), QPAI means an amount equal to the
excess (if any) of (A) DPGR for the taxable year, over
(B) the sum of (i) cost of goods sold (CGS) allocable to
such DPGR, and (ii) other expenses, losses, or deductions, which are properly allocable to such DPGR.
Section 199(c)(4)(A) provides the term DPGR means
the gross receipts of the taxpayer which are derived
from (i) any lease, rental, license, sale, exchange, or
other disposition of (I) qualifying production property
(QPP) which was manufactured, produced, grown, or
extracted (MPGE) by the taxpayer in whole or in significant part within the United States.

App. 108
Section 199(d)(1)(A) provides that, in the case of a partnership or S corporation, (i) § 199 shall be applied at
the partner or shareholder level, (ii) each partner or
shareholder shall take into account such person’s allocable share of each item described in § 199(c)(1)(A) or
(B) (determined without regard to whether the items
described in § 199(c)(1)(A) exceed the items described
in § 199(c)(1)(B)), and (iii) each partner or shareholder
shall be treated for purposes of § 199(b) as having W-2
wages for the taxable year in an amount equal to such
person’s allocable share of the W-2 wages of the partnership or S corporation for the taxable year (as determined under regulations prescribed by the Secretary).
Section 1.199-5(b)(1)(i) provides that the deduction
with respect to the qualified production activities of
the partnership allowable under §1.199-1(a) (§ 199 deduction) is determined at the partner level. As a result,
each partner must compute its deduction separately.
Each partner is allocated, in accordance with §§ 702
and 704, its share of partnership items (including
items of income, gain, loss, and deduction), CGS allocated to such items of income, and gross receipts that
are included in such items of income, even if the partner’s share of CGS and other deductions and losses exceeds DPGR (as defined in § 1.199-3(a)). A partnership
may specially allocate items of income, gain, loss, or deduction to its partners, subject to the rules of § 704(b)
and the supporting regulations. To determine its § 199
deduction for the taxable year, a partner aggregates its
distributive share of such items, to the extent they are
not otherwise disallowed by the Code, with those items

App. 109
it incurs outside the partnership (whether directly or
indirectly) for purposes of allocating and apportioning
deductions to DPGR and computing its QPAI (as defined in § 1.199-1(c)).
Section 1.199-5(b)(3) provides that, under § 199(d)(1)(A)(iii),
a partner’s share of Paragraph (e)(1) wages of a partnership for purposes of determining the partner’s wage
limitation under § 199(b)(1) (W-2 wage limitation)
equals the partner’s allocable share of those wages.
The partnership must allocate the amount of Paragraph (e)(1) wages among the partners in the same
manner it allocates wage expense among those partners. The partner must add its share of the Paragraph
(e)(1) wages from the partnership to the partner’s Paragraph (e)(1) wages from other sources, if any. The
partner (other than a partner that itself is a partnership or S corporation) then must calculate its W-2
wages by determining the amount of the partner’s total
Paragraph (e)(1) wages properly allocable to DPGR. If
the partner is a partnership or S corporation, the partner must allocate its Paragraph (e)(1) wages (including
the Paragraph (e)(1) wages from a lower-tier partnership) among its partners or shareholders in the same
manner it allocates wage expense among those partners or shareholders. See § 1.199-2(e)(2) for the computation of W-2 wages and for the proper allocation of
any such wages to DPGR.
Assuming that C produced Product in whole or in significant part within the United States within the
meaning of § 199(c)(4)(A)(i)(I), then § 199(d)(1)(A)(i)
and § 1.199-5(b)(1) require A to determine its § 199

App. 110
deduction at the partner level. A must compute its
§ 199 deduction separately from B. Section
199(d)(1)(A)(ii) provides that A must take into account
its allocable share of each item described in
§ 199(c)(1)(A) and (B). Section 1.199-5(b)(1) provides
that in accordance with §§ 702 and 704, C must allocate to A its share of partnership items (including
items of income, gain, loss, and deduction), CGS allocated to such items of income, and gross receipts that
are included in such items of income. Furthermore, under § 1.199-5(b)(3), A’s share of Paragraph (e)(1) wages
of C for purposes of determining A’s wage limitation
under § 199(b)(1) (W-2 wage limitation) equals A’s allocable share of those wages. C must allocate the amount
of Paragraph (e)(1) wages among the partners in the
same manner it allocates wage expense among those
partners. A must add its share of the Paragraph (e)(1)
wages from C to A’s Paragraph (e)(1) wages from other
sources, if any. A then must calculate its W-2 wages by
determining the amount of the partner’s total Paragraph (e)(1) wages properly allocable to DPGR. Thus,
because A has not received the specific information
necessary for A to separately calculate its § 199 deduction, A and C (or A and B on behalf of C) must determine A’s allocable partnership items under
§ 199(d)(1)(A)(ii) and § 1.199-5(b)(1) and (3) before A
can claim the deduction.
SUMMARY
In sum, we conclude that the collaboration between
A and B is a partnership for federal tax purposes.

App. 111
Accordingly, C is treated as a partnership for all purposes of the Code, not just § 199. See, e.g., §§ 761(a) and
7701(a)(2). Furthermore, C is not eligible to elect or be
deemed to elect to be excluded from the application of
subchapter K under § 761(a) or § 1.761-2(b)(1) or
(2)(ii). To claim the § 199 deduction with respect to
Product, A must know its allocable share of partnership items. Therefore, A and C (or A and B on behalf of
C) must determine A’s allocable partnership items in
accordance with § 199(d)(1)(A)(ii) and § 1.199-5(b)(1)
and (3).
This writing may contain privileged information. Any
unauthorized disclosure of this writing may undermine our ability to protect the privileged information.
If disclosure is determined to be necessary, please contact this office for our views.
Please call
tions.

at

if you have any further ques-

App. 112
26 U.S.C. § 414 – Definitions and special rules
(c)Employees of partnerships, proprietorships, etc.,
which are under common control
(1) In general
Except as provided in paragraph (2), for purposes of
sections 401, 408(k), 408(p), 410, 411, 415, and 416, under regulations prescribed by the Secretary, all employees of trades or businesses (whether or not
incorporated) which are under common control shall be
treated as employed by a single employer. The regulations prescribed under this subsection shall be based
on principles similar to the principles which apply in
the case of subsection (b).

App. 113
29 U.S.C. § 1301 – Definitions
(b)(1) An individual who owns the entire interest in
an unincorporated trade or business is treated as his
own employer, and a partnership is treated as the employer of each partner who is an employee within the
meaning of section 401(c)(1) of Title 26. For purposes
of this subchapter, under regulations prescribed by the
corporation, all employees of trades or businesses
(whether or not incorporated) which are under common control shall be treated as employed by a single
employer and all such trades and businesses as a single employer. The regulations prescribed under the
preceding sentence shall be consistent and coextensive
with regulations prescribed for similar purposes by
the Secretary of the Treasury under section 414(c) of
Title 26.
26 C.F.R. § 1.414(c)-2 – Two or more trades or
businesses under common control.
(a) In general. For purposes of this section, the term
“two or more trades or businesses under common control” means any group of trades or businesses which is
either a “parent-subsidiary group of trades or businesses under common control” as defined in paragraph
(b) of this section, a “brother-sister group of trades or
businesses under common control” as defined in paragraph of this section, or a “combined group of trades or
businesses under common control” as defined in paragraph (d) of this section. For purposes of this
section and §§ 1.414(c)-3 and 1.414(c)-4, the term

App. 114
“organization” means a sole proprietorship, a partnership (as defined in section 7701(a)(2)), a trust, an estate, or a corporation.
(b) Parent-subsidiary group of trades or businesses
under common control –
(1) In general. The term “parent-subsidiary group of
trades or businesses under common control” means
one or more chains of organizations conducting trades
or businesses connected through ownership of a controlling interest with a common parent organization
if –
(i) A controlling interest in each of the organizations,
except the common parent organization, is owned (directly and with the application of § 1.414(c)-4(b)(1),
relating to options) by one or more of the other organizations; and
(ii) The common parent organization owns (directly
and with the application of § 1.414(c)-4(b)(1), relating
to options) a controlling interest in at least one of the
other organizations, excluding, in computing such controlling interest, any direct ownership interest by such
other organizations.
29 C.F.R. § 4001.2 – Definitions
Controlled group means, in connection with any person, a group consisting of such person and all other
persons under common control with such person, determined under § 4001.3 of this part. For purposes of
determining the persons liable for contributions under

App. 115
section 412(b)(2) of the Code or section 302(b)(2) of
ERISA, or for premiums under section 4007(e)(2) of
ERISA, a controlled group also includes any group
treated as a single employer under section 414 (m) or
(o) of the Code. Any reference to a plan’s controlled
group means all contributing sponsors of the plan and
all members of each contributing sponsor’s controlled
group.
29 C.F.R. § 4001.3 – Trades or businesses under
common control; controlled groups.
For purposes of title IV of ERISA:
(a) (1) The PBGC will determine that trades and
businesses (whether or not incorporated) are under
common control if they are “two or more trades or businesses under common control”, as defined in regulations prescribed under section 414(c) of the Code.
(2) The PBGC will determine that all employees of
trades or businesses (whether or not incorporated)
which are under common control shall be treated as
employed by a single employer, and all such trades and
businesses shall be treated as a single employer.
(3) An individual who owns the entire interest in an
unincorporated trade or business is treated as his own
employer, and a partnership is treated as the employer
of each partner who is an employee within the meaning of section 401(c)(1) of the Code.

